U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
               Spring 2011




       October 1, 2010 – March 31, 2011
.
                              U.S. SMALL BUSINESS ADMINISTRATION
                                 OFFICE OF INSPECTOR GENERAL
                                     WASHINGTON, D.C. 20416




I am pleased to present the U.S. Small Business Administration (SBA) Office of Inspector General (OIG)
Spring 2011 Semiannual Report to Congress, which provides a summary of the OIG’s activities from
October 1, 2010 to March 31, 2011.

During this reporting period, the OIG issued 15 reports containing 112 recommendations for improving
SBA operations and reducing fraud and unnecessary losses in the Agency’s programs. In addition, OIG
investigations resulted in 25 indictments and 17 convictions. Overall, the OIG achieved monetary
recoveries and savings of more than $55 million from recommendations that funds be put to better use
agreed to by management, disallowed costs agreed to by management, court ordered and other
investigative recoveries and fines, and loans/contracts not made as a result of investigations and name
checks.

The Small Business Act directs the SBA to promote the award of federal contracts to small businesses
and firms owned by disadvantaged individuals (such as minorities, service-disabled veterans, women,
firms from areas of low economic activity, and others). The SBA also runs the Section 8(a) Business
Development Program and has delegated contract execution authority to procuring agencies. For Fiscal
Year (FY) 2009, SBA reported that small and disadvantaged firms were awarded nearly $97 billion in
government-wide prime contracting assistance and almost $19 billion in Section 8(a) contracts. The
OIG’s audits and investigations have identified numerous instances where firms that do not meet the
criteria to be either “small” or “disadvantaged” have improperly obtained contracts under these SBA
contracting programs. The OIG has several long-standing Management Challenges for SBA to promote
integrity in small business contract awards and oversight of the Section 8(a) program.

During this semiannual period, the OIG issued a report on the results of a review that looked at the
effectiveness of SBA surveillance reviews of federal procuring agencies. Surveillance reviews help the
SBA determine whether small businesses are receiving fair and equitable federal contracting opportunities
and whether contracts are awarded and performed consistent with small business and 8(a) program
requirements. The OIG found that surveillance reviews conducted in FY 2009 were superficial, limited in
scope, poorly documented, and untimely, and thus were inadequate for making determinations about the
effectiveness of the procuring agencies' small business programs or their compliance with small business
rules, including the Section 8(a) delegation. The OIG made a number of recommendations for improving
the effectiveness of surveillance reviews.

I would like to thank the OIG’s employees for their outstanding efforts to promote economy, efficiency,
effectiveness, and integrity in SBA programs and operations. We look forward to continuing to work
with Administrator Mills and SBA’s management to address the issues and challenges facing the agency.




Peggy E. Gustafson
Inspector General
This page intentionally left blank.
                                                       Table of Contents


The SBA and the OIG ................................................................................................................................... 1

Management Challenges ............................................................................................................................... 2

Small Business Access to Capital ................................................................................................................. 3

Disaster Loan Program ................................................................................................................................. 7

Small Business Development, Contracting, Education and Training ......................................................... 10

Agency Management .................................................................................................................................. 13

Other Significant OIG Activities ................................................................................................................ 16

Statistical Highlights ................................................................................................................................... 18

Appendix I - OIG Reports Issued ................................................................................................................ 20

Appendix II - OIG Reports with Questioned Costs ..................................................................................... 22

Appendix III - OIG Reports with Recommendations that Funds be put to Better Use ............................... 22

Appendix IV - OIG Reports with Non-Monetary Recommendations ......................................................... 23

Appendix V - OIG Reports from Prior Semiannual Periods with Overdue Management Decisions .......... 23

Appendix VI - OIG Reports Without Final Actions as of March 31, 2011 ................................................. 24

Appendix VII - Summary of Significant Recommendations from Prior Semiannual Reporting Period

without Final Action as of March 31, 2011 ................................................................................................ 27

Appendix VIII - Summary of Significant Recommendations October 1, 2010 through March 31, 2011 ... 33

Appendix IX - SBA Cosponsored and Other Activities October 1, 2010 through March 31, 2011 ............ 47

Appendix X - Legal Actions Summary October 1, 2010 through March 31, 2011 ..................................... 51

Appendix XI - Results of External Peer Reviews ....................................................................................... 59

Appendix XII - Small Business Administration Office of Inspector General ............................................. 61

Appendix XII - Small Business Administration Office of Inspector General Organization Chart .............. 62
This page intentionally left blank.
                        Overview of the SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by providing for the development and growth of small
businesses. The SBA also helps in the economic recovery of local communities after disasters. The
SBA’s means for achieving its objectives are outlined in the following strategic goals for 2011-2016.

     Growing businesses and creating jobs.
     Building an SBA that meets the needs of today's and tomorrow's small businesses.
     Serving as the voice for small business.

The SBA is organized around four key functional areas: financial assistance (e.g., loan programs);
contracting assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance.
The Agency also represents small businesses through an independent advocate and an ombudsman. The
SBA’s headquarters is located in Washington, D.C. SBA Programs are delivered through 10 regional
offices, 68 district offices, 4 disaster field offices, and a vast network of resource partners in all 50 states,
the District of Columbia, and U.S. territories.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the mission of the Office of Inspector General
(OIG) is to deter and detect fraud, waste, abuse and inefficiencies in SBA programs and operations. The
Office accomplishes this mission through audits, investigations, and other activities that assist the Agency
by improving its ability to achieve its mission. The OIG carries out other significant statutory
responsibilities and Government-wide mandates, including responsibilities under the Small Business Act
and the Small Business Investment Act.

The OIG seeks to improve SBA programs and operations by identifying key risks and weaknesses facing
the Agency, ensuring that corrective actions are taken, and promoting a high level of integrity. The
Office’s efforts and accomplishments during the first half of Fiscal Year (FY) 2011, which are
summarized in this report, focused on the two goals in the OIG’s strategic plan.

     Improving the economy, efficiency, and effectiveness of SBA programs and operations.
     Promoting and fostering integrity in SBA programs and operations.

Using this framework, the OIG concentrated on critical risks facing the SBA, including (1) risks of
financial losses due to limited oversight and controls; (2) risks to the SBA's performance of its statutory
mission to promote small business development and Government contracting; and (3) risks associated
with the SBA's information technology and financial management systems and other internal operations.
Audit and other reports issued during this reporting period are listed in Appendix I. Investigative actions
are summarized in Appendix X. Copies of OIG reports and other work products are available on the
OIG’s website at http://www.sba.gov/office-of-inspector-general or by telephone at (202) 205-6586.




                                                       1
                                    Management Challenges

Management Challenges
In accordance with the Reports Consolidation Act of 2000, each year the OIG identifies the most serious
management and performance challenges facing the Agency for inclusion in the SBA’s Performance and
Accountability Report. The Management Challenges represent areas that the OIG considers to be
particularly vulnerable to fraud, waste, abuse, or mismanagement, or which otherwise pose significant
risk to the Agency, its operations, or its credibility. Each Management Challenge generally has originated
from one or more OIG or Government Accountability Office (GAO) report(s). For each Management
Challenge, the OIG provides the Agency with recommended remedial actions together with an assessment
of Agency progress on each recommended action during the preceding fiscal year.

On October 15, 2010, the OIG provided the Agency with its Report on the Most Serious Management and
Performance Challenges Facing the SBA in FY 2011. This report provided the OIG’s current assessment
of SBA programs and/or activities that pose significant risks, including those that are particularly
vulnerable to fraud, waste, error, mismanagement, or inefficiencies. In accordance with the Reports
Consolidation Act of 2000, the Management Challenges Report was included in the Agency Financial
Report that was issued by the SBA on November 15, 2010. We were pleased to report that one
Management Challenge, Insufficient and Outdated SBA Controls Contribute to Excessive Risk of the
SBIC Program, was completed by virtue of both remaining recommended actions receiving Green color
scores. The OIG determined that the SBA had improved its process for transferring Small Business
Investment Companies (SBICs) to liquidations when warranted, had developed performance goals and
indicators to evaluate effectiveness of the liquidation process of SBICs, and initiated an annual goal
reporting process. The following table provides a summary of the FY 2011 report on the Agency’s Most
Serious Management and Performance Challenges.

                    Summary of the SBA’s Fiscal Year 2011 Management Challenges

                                         Status     Status        Status       Status
    No.              Topic               Score      Score          Score       Score       Improved 1      Worsened 2
                                         Green      Yellow        Orange        Red
    1     Small Business Contracts                    2              1
    2     IT Security                                 3              1                                         1
    3     Human Capital                               2              1                                         1
    4     Loan Guaranty Purchase        1                            1                      1
    5     Lender Oversight                           4               2                      2
    6     8(a) BD Program                            3               1                                         1
    7     Loan Agent Fraud                           2                                      2
          Loan Management and
    8                                                             4                        __ 3                __
          Accounting System
    9     Improper Payments             1            3            3                        __ 4                __
              TOTAL                     2            18           14                        5                  3
                Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress



1
  “Improved” refers to an action item that showed progress this year over last year’s score.
2
  “Worsened” refers to a recommended action that regressed from last year’s score.
3
  Management Challenge 8, Loan Management and Accounting System, was new in FY 2010. Consequently, no color scores
were shown in last year’s report against which to measure progress.
4
  Management Challenge 9, Improper Payments, was new in FY 2010. Consequently, no color scores were shown in last year’s
report against which to measure progress.

                                                             2
                        Small Business Access to Capital

Small Business Access to Capital
As of March 31, 2011, the SBA had a financial assistance portfolio of guaranteed and direct loans in
excess of $94 billion. The SBA’s largest lending program and its principal vehicle for providing small
businesses with access to credit that cannot be obtained elsewhere is the Section 7(a) Loan Guaranty
Program. This program relies on numerous outside parties (e.g., borrowers, loan agents, and lenders) to
complete loan transactions. Approximately 80 percent of 7(a) loans are made by lenders with delegated
authority to obligate an SBA guaranty with only limited prior review by the Agency. Additionally, SBA
has centralized many loan functions and reduced the number of staff performing these functions. Over
the past decade, SBA has also introduced a number of subprograms of the 7(a) Program, including the
SBAExpress Program in which lenders obtain a lower guaranty from SBA in exchange for being able to
use their own forms and loan making procedures. As SBA has placed more responsibility on, and given
greater independence to, its 7(a) lenders, the need for oversight has increased significantly. The OIG
continues to identify weaknesses in SBA’s lender oversight efforts.

The SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate financing for the
purchase of land, buildings, machinery, and other fixed assets. Local economic development
organizations approved by the SBA, and known as Certified Development Companies (CDCs), package,
close, and service these loans, which are funded through a mix of funds from private sector lenders,
proceeds from the sale of SBA-guaranteed debentures, and borrower equity investment.

The Microloan Program provides small ($50,000 or less), short-term loans and technical assistance to
small business concerns as well as non-profit child-care centers. The assistance is provided by SBA-
funded, intermediary lenders, which are non-profit community-based organizations with experience in
lending and providing businesses with management and technical assistance.

Through the Small Business Investment Company (SBIC) Program, the SBA licenses and makes funds
available to venture capitalists known as SBICs. These firms lend to, or otherwise invest in, small
businesses using participating securities made up of contributions from the SBA and private investors or
funds generated through the sale of SBA-guaranteed debentures.

Review of SBA’s America’s Recovery Capital Loan Program

The OIG undertook a review of loans made under SBA’s America’s Recovery Capital (ARC) program,
which the Agency established pursuant to the American Recovery and Reinvestment Act of 2009
(Recovery Act). The purpose of this program was to provide short-term loans of up to $35,000 to allow
small businesses facing financial difficulties to make up to six months of principal and interest payments
on qualifying loans they had previously obtained.

The OIG’s review found that documentation in the loan files was inadequate to ensure borrowers:
(1) were viable small businesses; (2) used ARC loan proceeds for existing qualifying small business
loans; and/or (3) experienced financial hardship. The OIG identified material origination and closing
deficiencies in 56 of a sample of 120 loans reviewed, resulting in inappropriate loan approvals of
approximately $1.8 million. As of December 22, 2010, the identified deficiencies posed a $1.6 million
risk of loss to the SBA, calculated as the SBA’s share of the outstanding loan balance or the deficiency
amount, whichever was less. Projecting the sample results to the universe of 4,559 ARC loans approved
between June 1, 2009 and January 31, 2010 with at least one disbursement as of January 31, 2010, the

                                                    3
                         Small Business Access to Capital

OIG estimated that 2,228 ARC loans made during this period were not originated and closed in
compliance with SBA policies and procedures, resulting in approximately $66.5 million in inappropriate
loan approvals.

In order to address the loan deficiencies, the OIG recommended that the SBA flag all 56 loans to ensure
the deficiencies are properly addressed should the loans default and be submitted for purchase. We also
recommended that the SBA notify the OIG of any denials, repairs, withdrawals, or cancellations of SBA
guaranties made as a result of the deficiencies identified during purchase review. Further, we
recommended that the SBA notify the loan servicing center responsible for purchasing defaulted ARC
loans of the high number of deficiencies identified and require the center to carefully review all ARC
loans for compliance with SBA requirements during its purchase review.

Legal Actions Continue to Result from Multi-Year Fraud Investigation

As described in previous semiannual reports, a lender’s former executive vice president and others
conspired to fraudulently qualify loan applicants for SBA-guaranteed loans to be used primarily for the
purchase of gas stations across several Midwestern states. The scheme involved at least 91 fraudulent
loans totaling approximately $85 million. Thus far, 39 individuals have been indicted or otherwise
charged, and 31 have been convicted. Three defendants are international fugitives. To date, court-
ordered restitution, civil settlements, SBA recoveries of loan guaranties from the lender and potential cost
savings from the withdrawal of loan guaranties total approximately $92 million. OIG investigations of
related criminal activity are ongoing.

During this reporting period, an Illinois entrepreneur was sentenced to 15 months incarceration, three
years supervised release, and $953,736 in restitution, after pleading guilty to making false statements to
the lender and the SBA. The court also ordered that he be transferred to the Department of Homeland
Security (DHS), Immigration and Customs Enforcement (ICE), for deportation immediately following his
term of imprisonment. These actions followed an earlier indictment charging the entrepreneur and three
other businessmen with multiple counts of wire fraud in connection with schemes to defraud the SBA and
a preferred lender. These schemes involved a $1,240,000 SBA-guaranteed loan to an Illinois corporation
for the purchase of an Indiana gasoline station. The entrepreneur, who was the corporate president and a
50 percent owner of the corporation, conspired with a loan agent to certify and present fraudulent
documents to the lender and the SBA as part of the application for financing.

Criminals Use an Assortment of Methods to Defraud the Loan Guaranty Program

Criminals use a variety of methods to fraudulently obtain—or induce others to obtain—SBA-guaranteed
loans. These include submitting fraudulent documents, making fictitious asset claims, manipulating
property values, using loan proceeds contrary to the terms of the loans, and failing to disclose debts or
prior criminal records. The following cases demonstrate some of the methods used.

     A Georgia bar owner was sentenced to 20 months incarceration, three years probation, and
      $1.8 million in restitution, after pleading guilty to making false statements to the lender and the
      SBA. He previously had been indicted for providing false information on his bank application for
      a $1.8 million loan. Among other things, he claimed to have approximately $23 million in gross
      sales when actual sales were about $250,000. The owner also had indicated that he had no



                                                     4
                        Small Business Access to Capital

        previous criminal history when, in reality, he had numerous arrests and convictions for various
        crimes, including simple assault and possession of illegal substances.

     The owner of a Maryland restaurant equipment outlet was sentenced to six months home
      detention, three years probation, and $97,000 in restitution, after pleading guilty to conspiracy.
      She had entered into an agreement with the vice president of a restaurant to perform construction
      and renovation work and provide equipment at a cost of $145,000. The vice president, who asked
      her to falsely represent the project’s total cost as $295,000, filed an SBA loan application, and
      provided the restaurant equipment owner’s inflated contract in support of the loan. Ultimately,
      the vice president was approved for a $417,000 SBA-guaranteed loan, of which approximately
      $310,000 was actually disbursed. After the restaurant received the initial disbursement from the
      loan proceeds, its vice president paid the restaurant equipment company owner for remodeling
      work, of which $97,000 was then given back to the restaurant vice president. The vice president
      was found guilty of conspiracy, making false statements to the SBA, and aiding and abetting.

     A Texas businessman was indicted for bank fraud and making false statements to banks and the
      SBA. The indictment included a notice of criminal forfeiture for property derived as a result of
      these offenses, including approximately $419,000 in U.S. currency. The businessman was the
      owner of a group that received loan applications from potential borrowers. When submitting the
      applications to various banks, he inflated the income information provided by the applicants. The
      investigation identified 26 loans or lines of credit in which the income information provided to
      the banks was not the same as the income information the applicants provided to the group. This
      is a joint investigation with the Federal Bureau of Investigation (FBI).

False Identities Used to Obtain SBA Loans

A New Jersey loan broker pled guilty to conspiracy to commit bank fraud. The investigation revealed
that an organized group of foreign nationals were obtaining credit cards and loans, including SBAExpress
loans, from various lending institutions by using false identities, documents, and business names. As a
member of the group, the loan broker obtained loans from various financial institutions for fictitious
businesses. He brokered 28 loans totaling approximately $1.5 million, with current losses on these loans
being nearly $1.1 million. The OIG is conducting this investigation jointly with the Internal Revenue
Service, Criminal Investigation Division, and the Englewood (New Jersey) Police Department.

Bank Fraud Case Yields More Legal Actions

As described in previous semiannual reports, 11 individuals were originally charged with various federal
crimes in a 185-count indictment that resulted from a scheme to defraud a Missouri bank and the SBA.
The charges involved at least 31 fraudulent business loans, totaling more than $10 million, issued by the
bank. The defendants included a former executive vice president and chief lending officer of the bank, a
former SBA branch manager, and two Missouri business consultants. The OIG continues to conduct this
investigation jointly with the FBI. The following legal actions took place during the current reporting
period.

     A former vice president/loan compliance officer of the bank was indicted for conspiracy and
      making false statements to the SBA. A business allegedly obtained a $1.6 million SBA loan from
      the bank for the stated purposes of acquiring working capital and refinancing debt. In connection

                                                    5
                   Small Business Access to Capital

   with the loan application, the SBA required that the bank attest to and demonstrate that none of
   the business’s loans that were to be refinanced with the SBA loan had been more than 30 days
   past due in the previous three years.           As part of the conspiracy, the former vice
   president/compliance officer assisted others in preparing false affidavits representing that (1) the
   business had not been more than 30 days past due when it actually had been on multiple
   occasions, and (2) a particular loan was an obligation of the business when it really was not. She
   also forged the signature of another bank official on an affidavit.

 A man pled guilty to making false statements for the purpose of influencing the SBA and to
  aiding and abetting. Two persons associated with a consulting business established a firm in the
  man’s name and recruited him to obtain a $175,070 SBAExpress loan from the bank. Although
  the loan’s stated purpose was to purchase equipment for the man’s purported business, the two
  individuals instead paid the man $7,500 for obtaining the loan and used the remainder of the
  proceeds for personal expenses and to pay a third party’s outstanding debt.

 A former real estate agent was sentenced to five years probation after pleading guilty to making
  false statements for the purpose of influencing the SBA. The investigation revealed that an
  individual associated with a consulting firm approached him and asked him to provide his
  financial information to the individual so that a $125,085 loan could be obtained from the bank.
  The loan was originated, with the proceeds used to personally benefit him and to make payments
  on other individuals’ and businesses’ SBA-guaranteed loans.




                                                6
                                 Disaster Loan Program

Disaster Loan Program
The Disaster Loan Program plays a vital role in the aftermath of disasters by providing long-term, low-
interest loans to affected homeowners, renters, businesses of all sizes, and non-profit organizations.
There are two types of disaster loans: (1) physical disaster loans for permanent rebuilding and
replacement of uninsured disaster-damaged privately-owned real and/or personal property, and
(2) economic injury disaster loans to provide necessary working capital to small businesses until normal
operations resume after a disaster. The Disaster Loan Program is particularly vulnerable to fraud and
unnecessary losses because loan transactions are expedited in order to provide quick relief to disaster
victims.

As of March 31, 2011, the SBA had approved nearly 161,000 disaster loans—totaling almost
$11 billion—to assist victims of the Gulf Coast Hurricanes Katrina, Rita, Wilma in 2005, and nearly
24,000 disaster loans—totaling over $1.2 billion—as a result of Hurricanes Gustav and Ike and flooding
in the Midwest during 2008. During this semiannual period, the OIG’s audits of this disaster assistance
focused on loan servicing activities. The OIG also continues to investigate allegations of fraudulent
activity, including unauthorized use of loan proceeds, overstatement of financial losses, material false
statements in the application process, false/counterfeit supporting documentation, and false assertions
regarding primary residency in affected areas at the times of the disasters.

Fraud Related to Gulf Coast Hurricanes Continues to Be Uncovered

In 2005, Hurricanes Katrina, Wilma, and Rita devastated the Gulf Coast of the United States. Federal
agencies responded with massive aid, including billions of dollars in SBA disaster assistance loans.
Unfortunately, as with any disaster, the need to disburse loans quickly meant opportunities for dishonest
applicants to commit fraud. To counter this, various law enforcement organizations created what is
currently known as the National Center for Disaster Fraud (NCDF).

In conjunction with other law enforcement organizations in the NCDF, the OIG’s efforts from FY 2006
through the first half of FY 2011 have thus far produced 79 arrests, 91 indictments, and 84 convictions
related to wrongdoing in the SBA’s Disaster Loan program. The OIG’s investigations in the disaster area
to date have also resulted in over $5 million in court-ordered restitution and related recoveries. Moreover,
the OIG has assisted the SBA in denying almost $4.5 million in loans to potentially fraudulent borrowers.

The following cases illustrate some of the tactics used by criminals to profit illegally from Gulf Coast
hurricane relief efforts.

     A Louisiana man was sentenced to 78 months in prison, three years supervised release, $245,197
      in restitution, and a special $600 assessment fee. He had falsified the address of his primary
      residence at the time of Hurricane Katrina in order to obtain an $110,900 SBA disaster loan and a
      $150,000 grant from the Louisiana Road Home Program. The sentencing incorporates additional
      penalties for obtaining driver’s licenses and Social Security and health care benefits under his
      deceased brother’s name. The OIG is conducting this investigation jointly with the FBI and the
      Department of Housing and Urban Development (HUD) OIG.

     A Louisiana man was sentenced to 18 months in prison; three years supervised release, and
      $136,952 in restitution to the SBA after pleading guilty to theft of government funds. He

                                                     7
                               Disaster Loan Program

       originally had been approved for an SBA disaster home loan of $79,500 and a disaster business
       loan of $70,000. After these loans were approved, he submitted fictitious documents, including a
       lien release, invoices, insurance documents, and contractor proposals to induce the SBA to
       disburse additional loan funds. The OIG conducted this investigation jointly with the FBI.

    On behalf of the SBA, HUD, and the Federal Emergency Management Agency (FEMA), the
     United States entered into a civil settlement agreement with a Louisiana couple, who agreed to
     pay the United States $140,000. In addition, the couple confirmed that they paid the remaining
     $94,656 balance on an SBA disaster assistance loan. This investigation was initiated based on
     information alleging that the wife had made false claims to the SBA about the location of her
     primary residence at the time of Hurricane Katrina. Based on this claim, she received a $182,900
     SBA loan, $46,605 in FEMA disaster benefits, and $66,342 in assistance from the Louisiana
     Road Home Program. This was a joint investigation with the HUD and DHS OIGs.

    A Louisiana woman pled guilty to theft of government funds. She had provided false statements
     on her applications for disaster assistance by claiming that her primary residence had been
     affected by Hurricane Katrina. However, the house was considered unlivable prior to the storm.
     As a result of her claims, she received $219,000 in disaster loan funds from the SBA, a $150,000
     grant from the HUD Road Home Program, and nearly $26,700 from FEMA. This was a joint
     investigation with the HUD OIG, the DHS OIG, and the FBI.

    A Louisiana woman pled guilty to attempted felony theft and received a suspended sentence of
     six months in jail. She was also placed on unsupervised probation until her SBA loan is paid in
     full. The investigation determined that she misrepresented her income and employment to the
     SBA to obtain loan approval and subsequent increases totaling $187,800. She also made false
     statements and submitted fraudulent documentation to claim highly inflated disaster losses and
     repair expenses. This was a joint investigation with the HUD OIG, the DHS OIG, and the FBI.

    A Louisiana woman was sentenced to 37 months in federal prison and three years supervised
     release, in addition to being ordered to pay $476,906 in restitution. She had previously pled
     guilty to possession of a falsely obtained passport, false statements, theft of government funds,
     and mail fraud. The woman had applied for and received a $342,000 SBA Economic Injury
     Disaster Loan on behalf of her father for rental property damages caused by Hurricane Katrina.
     She submitted falsified receipts and rental agreements to induce the SBA to approve her father’s
     loan. In addition, she fraudulently recorded the SBA lien on her uptown mansion to satisfy the
     SBA’s requirement to secure the loan with collateral. This was a joint investigation with the
     DHS and HUD OIGs.

Processing and Recordkeeping at Disaster Loan Servicing Centers

The OIG conducted a review of SBA’s processing of insurance recovery checks to determine whether the
Agency was taking appropriate action to reduce duplicate benefits obtained by disaster loan borrowers.
An examination of the SBA’s Disaster Loan Servicing Centers located in Birmingham, Alabama and El
Paso, Texas found that these centers did not have adequate or effective procedures and systems for
processing insurance recovery checks and recovering duplicate benefits. This resulted in inaccurate
Duplication of Benefits (DOB) determinations and inappropriately returned or retained insurance checks.
Based on a review of a sample of checks processed by the centers during 2008 and 2009, the OIG

                                                  8
                                Disaster Loan Program

projected that at least $3,498,799 in duplicate benefits were returned to borrowers in error by the
Birmingham servicing center, and at least $667,362 in duplicate benefits were returned to borrowers in
error by the El Paso servicing center. The OIG also identified an additional $529,444 in insurance checks
processed by the Birmingham servicing center that were outside of the sampled universe. The errors
occurred because: (1) the SBA did not have adequate procedures to evaluate insurance checks for
duplicate benefits; (2) some employees lacked the expertise and tools to calculate remaining loan
eligibility needed for duplicate benefit determination; and (3) the centers did not adequately document
information to support the DOB determination so that it would be available if a check for the same
borrower was subsequently received. The OIG recommended that the SBA revise its procedures to
incorporate detailed instructions for processing insurance recovery checks, to include effective practices
to correct the deficiencies identified by the OIG, and that the servicing centers assign the insurance
recovery check processing to selected individuals and fully document the justification for the decision to
return or retain each check. We also recommended that the Agency recover duplicate benefits identified
in this audit.

The OIG also issued a report during this semiannual reporting period to identify concerns about the
Agency’s practices of not retaining critical disaster loan documentation. These concerns arose from
several prior OIG reviews, including the review of insurance check processing, discussed above. The
OIG found that the SBA disaster servicing centers lacked a clearly defined records management and
documentation process, and therefore, did not consistently make and preserve records containing adequate
and proper documentation as required by law. Records that should have been preserved because they
contained evidence of agency activities, or information of value to the agency, were not systematically
maintained. Additionally, the electronic recordkeeping system did not contain all of the required controls.
The deficiencies in the servicing center records management and documentation process create a risk that
the SBA may be unable to furnish information. The OIG’s recommendations included developing record
designation and retention requirements for all loan servicing documents and incorporating this guidance
into an SBA standard operating procedure, and revising standard operating procedures to include a
requirement to preserve the documentation showing the analyses used to justify all servicing actions.

Agency management agreed with the OIG’s recommendation in both of these reports and had begun or
completed implementation actions.




                                                    9
 Small Business Development, Contracting, Education and Training

Small Business Development, Contracting, Education and Training

The SBA works to maximize opportunities for small, woman, or minority-owned, and other
disadvantaged businesses to obtain federal contract awards through its government contracting programs.
These programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting Program and the Small Disadvantaged Business (SDB) Certification Program.
The SBA also negotiates with other federal agencies to establish procurement goals for contracting with
small, disadvantaged, women-owned, service-disabled veteran-owned, and HUBZone businesses. The
current government-wide goal is for small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

To help small disadvantaged businesses gain access to federal and private procurement markets, the
SBA’s Section 8(a) Business Development Program offers a broad range of business development
support, such as mentoring, procurement assistance, business counseling, training, financial assistance,
surety bonding, and other management and technical assistance. The SBA also provides assistance to
existing and prospective small businesses through a variety of counseling and training services offered by
partner organizations. Among these partners are Small Business Development Centers (SBDCs), the
Service Corps of Retired Executives (SCORE), and Women’s Business Centers (WBCs). Most of these
are grant programs that require effective and efficient management, outreach, and service delivery.

False Eligibility Used to Obtain Contracting Preferences

Investigations by the OIG and other federal organizations have identified a number of instances where
companies make false statements in order to obtain preferential contract awards under the
SDVO, HUBZone, 8(a), Alaska Native Corporation (ANC) and other programs. This fraud involves false
statements that the company meets eligibility criteria or schemes in which companies owned or controlled
by non-disadvantaged persons use disadvantaged or small companies as fronts to improperly obtain
contracting benefits. The following examples show the nature of the problem.

     A Maryland engineering company and a Maryland construction company, as well as their
      president and owner, agreed to pay the United States $200,000 to settle False Claims Act claims
      that they used false statements to obtain contracts from several government agencies. The
      contracts had been set aside for qualified HUBZone companies. The construction company
      falsely represented to the SBA and other government agencies that it maintained its principal
      office in a designated HUBZone location. According to the government, the design build
      company actually operated as part of the engineering company, which was not located in a
      HUBZone. The construction company obtained HUBZone contracts from the U.S. Army, the
      Department of Labor (DOL), DHS, and the Smithsonian Institution. The OIG conducted this
      investigation jointly with the DOJ Civil Fraud Section, Defense Criminal Investigative Service
      (DCIS), and the Smithsonian Institution OIG.

     Two Maryland contracting companies and their respective presidents agreed to pay the United
      States $200,000 to settle False Claims Act claims that they used false statements to obtain
      Department of Defense contracts set aside for qualified 8(a) and HUBZone companies. The
      government alleged that the first company and its president falsely represented to the SBA, the
      U.S. Navy, and the U.S. Army that the company was controlled by a socially and economically
      disadvantaged individual. According to the investigation, the first company was actually

                                                   10
 Small Business Development, Contracting, Education and Training

        controlled by the president of a second company who was not socially or economically
        disadvantaged. The government also alleged that: (1) he used the first company’s 8(a) status to
        continue the second company’s business operations after its own 8(a) status had expired, and (2)
        the first company and its president falsely claimed that its principal office was in a designated
        HUBZone location. As a result, the first company undeservedly obtained contracts set aside by
        the Air Force for qualified HUBZone companies. The OIG conducted this investigation jointly
        with DCIS and the DOJ Civil Fraud Section.

     A property management specialist (PMS) at the National Archives and Records Administration
      (NARA) was sentenced to 15 months in prison followed by three years of supervised release. He
      was also ordered to pay restitution of $958,280 jointly and severally with a previously sentenced
      co-conspirator. The defendants were involved in a scheme to embezzle $958,280 from NARA.
      The PMS was responsible for property management and project oversight for part of a NARA
      facility in Maryland, while the co-conspirator was a manager for a company that had a
      government contract to provide facility management. The PMS used his government purchase
      card to pay three purported businesses operated by the co-conspirator for goods and services that
      were either never provided or provided at inflated prices. The businesses were listed on
      contracting documents as 8(a) certified, although the SBA had no record of 8(a) certification.
      Moreover, the businesses did not have any offices or employees. The conspirators caused NARA
      to deposit payments into the sham businesses’ accounts and then shared the proceeds. This was a
      joint investigation with the NARA OIG.

Effectiveness of the SBA’s Surveillance Review Process

The OIG examined SBA’s surveillance reviews, in which SBA teams visit federal procuring agencies to
review contract files and small business procurement practices to determine whether the agencies are
properly making awards to small and disadvantaged businesses. These reviews help SBA to determine
whether small businesses are receiving fair and equitable opportunities to participate in federal contracts
and subcontracts and whether contracts are awarded and performed consistent with SBA requirements.

In FY 2009, the agency conducted surveillance reviews of 30 contracting activities that had purchases
totaling $17.3 billion. The 30 activities represented 1 percent of the 3,285 contracting activities that year
and 3 percent of the total procurement dollars for the 3,285 activities. The OIG analyzed reports from the
30 reviews along with available supporting documentation and found that the surveillance reviews did not
adequately assess the small business programs of procuring agencies. Further, the OIG found that SBA
did not use a systematic and analytical process for establishing review priorities to ensure reasonable
coverage of contracting activities, and that the 30 surveillance reviews conducted in FY 2009 were
limited in scope, inadequate, and not sufficient to establish, with certainty, whether the activities complied
with small business and 8(a) program requirements.

The OIG review also determined that SBA also did not follow-up to ensure that deficiencies identified by
surveillance review teams were corrected in a timely manner as only 61 of the 110 recommendations
made in FY 2007 and 2008 had been addressed. According to the SBA, a lack of staff resources and
competing priorities prevented it from taking corrective action.




                                                     11
 Small Business Development, Contracting, Education and Training

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the Agency
to issue regulations regarding disclosures of such information for use in conducting financial audits or
SBDC client surveys. In 2009, the Agency represented to the OIG that it would issue regulations as
required by the statute. Within the reporting period, the Agency circulated for internal clearance
proposed regulations, but did not formally issue the regulations.

In addition, paragraph 21(a)(7)(C)(iii) of the Small Business Act states that, until the issuance of such
regulations, any SBDC client survey and the use of such information shall be approved by the Inspector
General, who shall include such approval in the OIG’s Semiannual Report to Congress. SBA conducted
an OIG approved survey of SBDC clients during the second half of FY 2010.




                                                   12
                                   Agency Management

Agency Management
Agency management includes activities of the Offices of the Chief Financial Officer (CFO), the Chief
Information Officer (CIO), and Management and Administration. These activities encompass financial
reporting and performance management, human resources, procurements and grants, space and facilities,
and maintenance of the SBA’s information systems and related security controls.

SBA’s Procurement of Information Technology Hardware and Software

The OIG performed a review of the SBA’s procurement of information technology (IT) hardware and
software from a company named Isika Technologies, Inc. (iTechnologies). This review found that the
agency inadequately planned and inappropriately awarded two 8(a) sole-source Indefinite-Delivery/
Indefinite-Quantity (IDIQ) contracts and a Blanket Purchase Agreement (BPA) to the company for the
procurement of the IT hardware and software. As a result, the SBA: (1) did not have reasonable
assurance that it received the best value in these contracts; (2) violated the Competition in Contracting
Act and federal regulations; and (3) provided inaccurate data regarding nearly $7.6 million in obligations
in the Federal Procurement Data System – Next Generation (FPDS-NG).

The OIG recommended that the SBA immediately terminate the iTechnologies contracts and re-solicit the
IT hardware and software requirement using full and open competition procedures. The OIG also
recommended that the SBA: (1) exclude the iTechnologies IT hardware and software contract awards and
all associated delivery orders and BPA calls from SBA small business calculations; (2) implement and
provide annual training to contracting officers on reporting contract data to FPDS-NG; (3) conduct a
comprehensive review of data submitted to FPDS-NG for SBA contracts awarded to iTechnologies; (4)
reconcile all discrepancies identified, and correct any inaccurately reported data; and (5) hold contracting
officers accountable for FPDS-NG data accuracy requirements by incorporating FPDS-NG data accuracy
reporting requirements in each contracting officer’s performance plan.

Usefulness of the Small Business Innovation Research Tech-Net Database

The OIG conducted a limited-scope review of the usefulness of the SBA’s Small Business Innovation
Research (SBIR) Tech-Net database. The purpose of the review was to assess the SBA’s progress in
completing enhancements to and expansion of the Tech-Net database to allow federal agencies to
(1) identify duplicate awards and/or other potential fraud, and (2) better evaluate the performance of the
SBIR program. A 2006 review by the (GAO and reports from various other OIGs had identified data
gaps and weaknesses in Tech-Net that prevented agencies participating in the SBIR program from using
the database to identify duplicative awards. The OIG’s review found that the SBA had made limited
progress in enhancing Tech-Net since the 2006 GAO review. Participating agencies were still
experiencing difficulty in searching the database for duplicative awards and other indicators of fraud
because information in the Tech-Net database was incomplete and the search capabilities of the system
were limited. In addition, the SBA had not developed the government-use component of Tech-Net to
capture information on the commercialization of SBIR research and development projects. The OIG
made several recommendations to correct the deficiencies and in response, the SBA noted that it has
initiated a comprehensive upgrade of the Tech-Net database.




                                                    13
                                  Agency Management

Quality of the SBA’s Recovery Act Data on Public Websites

The OIG also undertook a review of SBA’s reporting of Recovery Act contract award obligations,
Microloans, and Microloan technical assistance grants in various governmental databases. The review
found that although SBA reports in Recovery.gov were relatively accurate, the same information was
materially underreported to USASpending.gov. Also, the review determined that recipients of SBA
Recovery Act funds reported erroneous and/or inaccurate information and did not include sub-recipient
information. Lastly, the SBA did not provide adequate oversight of the contractor it hired to perform data
quality reviews. As a result, Recovery Act information was inaccurate and the SBA was not compliant
with federal guidelines regarding the quality and completeness of information reported on the use of
Recovery Act funds. SBA officials agreed with the OIG’s findings and initiated action to address them.

Audit of SBA’s Fiscal Year 2010 Financial Statements

The OIG contracted with KPMG LLP to conduct the annual independent audit of SBA’s financial
statements and accompanying reports on internal control and compliance with laws and regulations for
the fiscal year ending September 30, 2010. The audit found that SBA’s consolidated financial statements
presented fairly, in all material respects (1) the financial position of SBA as of and for the years ending
September 30, 2010 and 2009, and (2) SBA’s net costs, changes in net position, budgetary resources, and
combined statements of budgetary resources for the years then ended. With respect to internal control,
the independent auditors continued to report a significant deficiency related to Information Technology
security controls. In addition, KPMG’s test for compliance with certain laws, regulations, contracts, and
grant agreements determined that the Agency did not fully comply with the Debt Collection Improvement
Act of 1996 because it did not consistently follow Treasury guidelines for referring delinquent debts for
collection. As part of its audit, KPMG issued several Management Letters addressing internal control and
other operational matters that were noted during the audit.

Weaknesses Identified During Federal Information Security Management Act Review

The Federal Information Security Management Act (FISMA) requires OIGs to perform annual
independent evaluations of their agency's information security program and practices to determine their
effectiveness. The OIG’s FY 2010 review found that significant improvements were needed in critical
computer security areas in order for SBA to fully meet the requirements set forth in FISMA and OMB
Circular A-130, Management of Federal Information Resources. The OIG made a number of
recommendations to address the deficiencies identified during the review.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress.

During the previous reporting period, the SBA reported receiving financial support from 16 nonfederal
organizations totaling $23,050. An OIG audit of SBA’s Business Assistance Trust Fund found that the
agency followed established procedures for soliciting, accepting, holding and utilizing these gifts.
During this reporting period, the SBA reported accepting 2 cash gifts totaling $10,000. The OIG will
audit these gifts in accordance with Section 4(g)(2).

                                                    14
                                  Agency Management

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with co-sponsorships and fee-based
Administration-sponsored events. The SBA’s Office of Strategic Alliances provided information to the
OIG related to co-sponsorships, including the names, dates, and locations of the cosponsored events and
the names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between October 1, 2010 and March 31, 2011, there were 36 cosponsored events.




                                                   15
                          Other Significant OIG Activities

Other Significant OIG Activities
Character Screening Lessens Potential Program Fraud

Participants in SBA programs that involve business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and Certified Development Companies must meet Agency
character standards. To help accomplish this, the OIG’s Office of Security Operations utilizes name
checks and, where appropriate, fingerprint checks to determine criminal background information. The
OIG processed 2,158 external name check requests for these programs during this reporting period.

Moreover, based on data from an on-line connection with the FBI, the OIG refers applicants who appear
ineligible because of character issues to program officials for adjudication. As a result of OIG referrals
during this reporting period, SBA business loan program managers declined 30 applications totaling over
$13.5 million, and disaster loan program officials declined 5 applications totaling over $116,000. In
addition, the Section 8(a) program declined 14 applications for admission.

During this reporting period, the OIG also initiated 293 background investigations and issued 23 security
clearances for Agency employees and contractors. Likewise, the OIG adjudicated 84 background
investigative reports and coordinated with SBA’s Office of Disaster Assistance (ODA) to adjudicate 53
derogatory background investigation reports. Finally, the OIG processed 2,300 internal name check
requests for Agency activities such as success stories, “Small Business Person of the Year” nominees, and
disaster assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

The OIG continues to promote debarment and other enforcement action as a means to protect SBA from
program participants that have engaged in fraud or otherwise exhibited a lack of business integrity. The
OIG regularly identifies candidates for debarment and other enforcement actions and submits detailed
recommendations with supporting documents to the responsible SBA officials.

During this reporting period, the OIG submitted 16 suspension and debarment recommendations to SBA.
Additional debarment statistics for the reporting period are in the Statistical Highlights section later in this
Report. Many of the OIG referrals involved misrepresentations and other actions indicating a lack of
business integrity in SBA preferential contracting programs. In several cases, the OIG recommended that
SBA suspend the subject of an ongoing OIG investigation given program risk presented by the continued
participation of those individuals and entities.

Suspension and Debarment Examples:

     The SBA suspended a contractor, its owner, and an affiliated entity after the OIG recommended
      the suspensions based on evidence indicating that the parties were involved in the submission of
      false information to the SBA, the Government Accountability Office, Congress, and the Veterans
      Administration, and violations of SBA regulations regarding prime contractor percentage of work
      requirements. The contractor has appealed this matter and the case remains open.

     The SBA debarred a contractor and its owner after the OIG recommended the debarment based
      upon evidence that the contractor misused contract funds.

                                                      16
                        Other Significant OIG Activities

Additionally, the OIG continued its work during the first half of FY 2011 to encourage the SBA to
implement a more robust debarment and suspension program. In response to a proposal that the OIG
provided the Agency in FY 2010, SBA has developed a plan to enhance its ability to detect and refer
irresponsible program participants to the appropriate suspension and debarment officials. SBA has
already implemented training and reporting elements of its suspension and debarment plan.

Finally, the OIG has been an active participant in the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Working Group on Suspensions and Debarments, which was formed to identify best
practices within the OIG community for promoting suspension, debarment and other enforcement actions.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls
to Reduce Fraud, Waste, Abuse and Inefficiencies

As part of the OIG’s proactive efforts to promote accountability and integrity and reduce inefficiency in
SBA programs and operations, the OIG reviews agency-proposed changes to program management
directives such as regulations and internal operating procedures, forms that SBA asks program applicants
and other members of the public to complete, and proposed agency reorganizations. Frequently, the OIG
identifies material weaknesses in these initiatives and recommends revisions to the Agency to promote
more effective controls. During the reporting period, the OIG reviewed 79 proposed revisions of program
management or agency reorganization documents and submitted comments on 46 of these initiatives.

Many of the initiatives that the OIG commented upon were issued in response to the various program
changes mandated by the Small Business Jobs Act of 2010 or new programs implemented by SBA. For
example, in response to OIG comments, the Agency implemented revisions to strengthen controls, and
reduce the potential for waste, fraud, abuse and inefficiencies in the Community and Lender Advantage,
Intermediary Lender Pilot, and the Dealer Floor Plan loan programs.                 Additionally, OIG
recommendations in connection with several information technology security and quality assurance
guidance documents also led to more robust controls in and enhancements to these program documents.

OIG Conducts Fraud Awareness Briefings

During this reporting period, the OIG conducted 12 fraud awareness presentations for nearly 300
attendees, including congressional staff, SBA employees, lenders, and law enforcement representatives.
Topics included the mission of SBA OIG and fraud indicators, with special emphasis on government
contracting and disaster assistance programs.




                                                   17
                                                  Statistical Highlights

                                               6-Month Productivity Statistics
                                           October 1, 2010 through March 31, 2011

Summary of Office-Wide Dollar Accomplishments                                                                                                  Totals

A.   Potential Investigative Recoveries and Fines ......................................................................... $6,118,039
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $4,500,000
C.   Loans Not Made as a Result of Name Checks ..................................................................... $13,652,912
D.   Disallowed Costs Agreed to by Management ............................................................................. $18,960
E.   Recommendations that Funds Be Put to Better
     Use Agreed to by Management ............................................................................................ $31,200,000

     Total ..................................................................................................................................... $55,489,911

Efficiency and Effectiveness Activities Related to Audit and Other Reports

A. Reports Issued ...................................................................................................................................... 15
B. Recommendations Issued ................................................................................................................... 112
C. Dollar Value of Costs Questioned .......................................................................................... $2,718,139
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................................. $0
E. Collections as a Result of Questioned Costs ............................................................................. $569,350

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period .............................................................................................................. 118
B. Disallowed Costs Agreed to by Management ............................................................................. $18,960
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................... $31,200,000
D. Recommendations without a Management Decision at End of Reporting Period ............................... 40

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances * Reviewed ............. 79


*    This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
     Agency initiatives, which frequently involve the implementation of new programs and policies.




                                                                           18
                                                     Statistical Highlights

                                                 6-Month Productivity Statistics
                                             October 1, 2010 through March 31, 2011

Indictments, Convictions, and Case Activity

A.    Indictments from OIG Cases ................................................................................................................ 25*
B.    Convictions from OIG Cases................................................................................................................ 17
C.    Cases Opened ....................................................................................................................................... 37
D.    Cases Closed......................................................................................................................................... 39

Recoveries and Management Avoidances as a Result of Investigations and Related Activities

A. Potential Recoveries and Fines as a Result of
   OIG Investigations ................................................................................................................. $6,118,039
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $4,500,000
C. Loans Not Approved as a Result of the Name Check Program ........................................... $13,652,912
   Total ..................................................................................................................................... $24,270,951

SBA Personnel Actions Taken as a Result of Investigations

A.    Dismissals............................................................................................................................................... 0
B..   Resignations/Retirements ....................................................................................................................... 0
C.    Suspensions ............................................................................................................................................ 0
D.    Reprimands............................................................................................................................................. 0
E.    Other ....................................................................................................................................................... 0

Debarment and Suspension Actions

A.    Suspensions and/or Debarments Recommended to the Agency........................................................... 16
B.    Suspensions and/or Debarments Pending at the Agency**.................................................................. 11
C.    Proposed Debarments Issued by the Agency ......................................................................................... 8
D.    Final Debarments Issued by the Agency ................................................................................................ 7
E.    Suspensions Issued by the Agency ......................................................................................................... 5
F.    Proposed Debarments Declined by the Agency ..................................................................................... 3
G.    Suspension/Debarment Actions by Other Agencies
      Resulting from Investigations in which the OIG Participated.............................................................. 15

OIG Hotline Operation Activities

A.    Total Hotline Complaints ................................................................................................................... 160
B.    Total Complaints Referred to Investigations Division ......................................................................... 24
C.    Total Complaints Referred to SBA or Other Federal Investigative Agencies...................................... 45
D.    Total Complaints Referred to Other Entities .......................................................................................... 9
E.    Total Complaints Needing No Action .................................................................................................. 10
F.    Total Complaints Being Reviewed for Possible Referral or Other Resolution…………….................72

*     May include actions from earlier reporting periods.
**    SBA has initiated administrative proceedings in seven of the eleven pending cases.
                                                                                19
                                          Appendices

                                             Appendix I

                                       OIG Reports Issued
                             October 1, 2010 through March 31, 2011

                                           Report         Issue     Questioned        Funds for
                 Title
                                           Number         Date        Costs           Better Use
                                            Recovery Act
Improper Allotment of Recovery Act        ROM 11-01      12/15/10                $0            $0
Apportionments
Lack of Documentation and Incorrect
Accounting for Recovery Act 7(A) Loan     ROM 11-02      12/15/10                $0            $0
Guaranty Approvals
America's Recovery Capital Loans Were
Not Originated and Closed in Accordance   ROM 11-03       3/2/11       $1,562,815              $0
with SBA's Policies and Procedures
Quality of Recovery Act Data on Public
                                          ROM 11-04      3/22/11                 $0            $0
Websites

          Program Subtotal                    4                        $1,562,815              $0

                                           Disaster Loans
Processing of Insurance Recovery Checks
                                            11-07         2/9/11       $1,155,324              $0
at the Disaster Loan Servicing Centers
Records Management and Documentation
Process at the Disaster Loan Servicing      11-10        3/29/11                 $0            $0
Centers

            Program Subtotal                  2                        $1,155,324              $0

             Small Business Development, Contracting, Education, and Training
Usefulness of the Small Business
                                            11-02        11/12/10                $0            $0
Innovation Research Tech-Net Database
SBA's Procurement of Information
Technology Hardware and Software            11-08        2/25/11                 $0            $0
Through Isika Technologies, INC.
Effectiveness of SBA’s Surveillance
                                            11-11        3/31/11                 $0            $0
Review Process
             Program Subtotal                 3                                  $0            $0




                                                    20
                                          Appendices

                                            Appendix I

                                      OIG Reports Issued
                            October 1, 2010 through March 31, 2011

                                          Report         Issue     Questioned        Funds for
                 Title
                                          Number         Date        Costs           Better Use
                                         Agency Management
Fiscal Year 2011 Report on the Most
Serious Management and Performance
                                           11-01        12/15/10                $0            $0
Challenges Facing the Small Business
Administration

Audit of SBA's FY 2010 Financial
                                           11-03        11/12/10                $0            $0
Statements


GFRS Report for FY 2010                    11-04        11/12/10                $0            $0


Audit of SBA's FY 2010 Financial
                                           11-05        11/12/10                $0            $0
Statements - Management Letter


Audit of SBA’s Compliance with the
Federal Information Security               11-06        1/28/11                 $0            $0
Management Act for FY 2010


Review of SBA Controls Over Cash Gifts     11-09        3/18/11                 $0            $0

         Program Subtotal                    6                                $0              $0
       TOTALS (all programs)                 15                       $2,718,139              $0




                                                   21
                                                        Appendices

                                                              Appendix II

                                         OIG Reports with Questioned Costs

                                                                                                    Questioned        Unsupported
No.                      Issue                        Reports          Recommendations*
                                                                                                     Costs**            Costs**
       No management decision made
A.                                                        2                        4                   $442,643             $223,014
       by September 30, 2010
       Issued during this reporting                       2                        2                 $1,380,218           $1,337,921
B.
       period
       Universe from which
       management decisions could be
                                                          4                        6                 $1,822,861           $1,560,935
       made in this reporting period –
       Subtotals
       Management decision(s) made
C.                                                        3                        4                 $1,052,810             $800,403
       during this reporting period
       (i) Disallowed costs                               1                        1                    $18,960                      $0
       (ii) Costs not disallowed                          0                        0                         $0                      $0
       (iii) Amount to be determined
                                                          3                        3                 $1,033,850             $800,403
       upon loan default***
       No management decision made
D.                                                        2                        2                   $770,051             $760,532
       by March 31, 2011

*      Reports may have more than one recommendation.
**     Questioned costs are those which are found to be improper, whereas unsupported costs may be proper, but lack documentation.
***    Represents the value of improper loans that have been flagged, based on OIG audits, so that upon default SBA can adjust or deny the
       guaranty payments based on the deficiencies identified in the audits

                                                           Appendix III

               OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                        Recommen-          Recommended Funds
No.                              Issue                                Reports
                                                                                         dations*             For Better Use
       No management decision made by
A.                                                                        3                     3                        $34,542,400
       September 30, 2010
B.     Issued during this reporting period                                0                     0                                    $0
       Universe from which management decisions
       could be made in this reporting period –                           3                     3                        $34,542,400
       Subtotals
       Management decision(s) made during this
C.                                                                        2                     2                        $33,300,000
       reporting period
       (i) Recommendations agreed to by SBA
                                                                          1                     1                        $31,200,000
            management
       (ii) Recommendations not agreed to by SBA
                                                                          2                     2                        $ 2,100,000
            management
       No management decision made by March
D.                                                                        1                     1                         $1,242,400
       31, 2011
*     Reports may have more than one recommendation.
**    Information is different from what was previously reported due to database corrections.
                                                                    22
                                                        Appendices

                                                            Appendix IV

                             OIG Reports with Non-Monetary Recommendations

No.                                            Issue                                              Reports         Recommendations
A.       No management decision made by September 30, 2010*                                           9                      39**
B.       Issued during this reporting period                                                         12                     110
         Universe from which management decisions could be made in this
                                                                                                     21                     149
         reporting period – Subtotals
         Management decision(s) made (for at least one recommendation in
C.                                                                                                   18                     112
         the report) during this reporting period

D.       No management decision made by March 31, 2011*                                               8                      37

*      Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have recommendations
       that fall under both C. & D.
**     Information is different from what was previously reported due to database corrections.




                                                             Appendix V

                             OIG Reports from Prior Semiannual Periods
                       With Overdue* Management Decisions as of March 31, 2011

                                                         Report
                        Title                                   Date Issued                                  Status
                                                         Number

Premier Certified Lenders in the Section                                              The Agency has not responded to one
                                                           10-10        3/23/10
504 Loan Program                                                                      recommendation in the report.


Notice of Finding and Recommendation on                    ROM                        The Agency has not responded to one
                                                                        9/22/10
Lender-Approved ARC Loans to Affiliates                    10-18                      recommendation in the report.


Material Deficiencies Identified in Early-
                                                           ROM                        The Agency has not responded to two
Defaulted and Early-Problem Recovery Act                                9/24/10
                                                           10-19                      recommendations in the report.
Loans


*     “Overdue” is defined as more than 180 days from the date of issuance.




                                                                    23
                                                    Appendices

                                                       Appendix VI

                                              OIG Reports Without
                                        Final Action as of March 31, 2011

                                                                                   Date of
Report                                                                 Date                   Final Action
                                         Title                                   Management
Number                                                                Issued                  Target Date
                                                                                  Decision
 0-14         7(a) Service Fee Collections                            3/30/00      8/22/00      6/31/11
              SBA’s Oversight of the Fiscal Transfer Agent for
 3-08                                                                 1/30/03      4/15/07      6/30/11
              the 7(a) Loan Program
 3-26         Microloan Program                                       5/12/03        *            **
              Audit of SBA's Process for Complying with the
 4-34         Federal Managers' Financial Integrity Act               7/29/04      9/9/04       4/30/11
              Reporting Requirements
              FY 2005 Financial Statements - Management
 6-10                                                                 1/18/06      3/7/06       3/31/10
              Letter
              Audit of SBA's Implementation of the Improper
 6-25                                                                 6/13/06      7/19/06      4/30/11
              Payments Information Act
              Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                                 11/15/06    12/20/06      6/30/11
              Statements
 7-28         SBA's Oversight Of Business Loan Center, LLC            7/11/07      9/27/07     12/31/09
 7-29         Quality Assurance Reviews of Loss Verification          7/23/07      8/30/08     6/30/11
 8-12         Oversight of SBA Supervised Lenders                      5/9/08      6/20/08     6/30/11
              Planning for the Loan Management and
 8-13         Accounting System Modernization and                     5/14/08      8/29/08     12/11/11
              Development Effort
              Audit of SBA’s Fiscal Year 2008 Financial
 9-03                                                                 11/14/08     9/30/09     12/15/10
              Statements
              Audit of SBA’s Fiscal Year 2008 Financial
 9-05                                                                 12/17/08     2/18/09     11/30/11
              Statements – Management Letter
              Review of SBA National Guaranty Purchase
 9-12                                                                 3/31/09      3/31/09     10/15/09
              Center Furniture Contract
              Participation in the 8(A) Program by Firms Owned
 9-15                                                                 7/10/09        *            **
              by Alaska Native Corporations
*    Management decision dates vary with different recommendations.
**   Target dates vary with different recommendations.




                                                               24
                                                    Appendices

                                                       Appendix VI

                                              OIG Reports Without
                                        Final Action as of March 31, 2011

                                                                                   Date of
Report                                                                 Date                   Final Action
                                         Title                                   Management
Number                                                                Issued                  Target Date
                                                                                  Decision
              SBA’s Fiscal Year 2008 Improper Payment Rate
 9-16                                                                 7/10/09        *            **
              for the 7(A) Guaranty Loan Program
              Review of Allegations Concerning How the Loan
 9-17         Management and Accounting System                        7/30/09        *            **
              Modernization Project is Being Managed
              SBA’s Management of the Backlog of Post-
 9-18         Purchase Reviews at the National Guaranty               8/25/09        *            **
              Purchase Center
              Monitoring of Insurance Coverage for Disaster
 10-01                                                                10/20/09     11/6/09        **
              Loan Recipients
              Application of Insurance Offsets for Gulf Coast
 10-03                                                                10/21/09     1/20/10      6/30/11
              Disaster Loans
 10-04        Audit of SBA's FY 2009 Financial Statements             11/13/09    12/15/09       6/1/10
              Audit of SBA's FY 2009 Financial Statements -
 10-06                                                                12/15/09       *            **
              Management Letter
              SBA’s Efforts to Improve the Quality of
 10-08        Acquisition Data in the Federal Procurement Data        2/26/10      3/29/10        **
              System
              Premier Certified Lenders in the Section 504 Loan
 10-10                                                                3/23/10      5/20/10     12/31/11
              Program
              Audit of the Assessment of the Community
 10-12                                                                8/25/10      3/28/11      5/31/11
              Express Pilot Program
              SBA's Role in Addressing Duplication of Benefits
 10-13        Between SBA Disaster Loans and Community                8/31/10      1/12/11     12/31/11
              Development Block Grants
              Adequacy of Quality Assurance Oversight of the
 10-14                                                                9/13/10        *          6/13/11
              Loan Management and Accounting System Project
*    Management decision dates vary with different recommendations.
**   Target dates vary with different recommendations.




                                                               25
                                                 Appendices

                                                      Appendix VI

                                            OIG Reports Without
                                      Final Action as of March 31, 2011


                                                                                   Date of
Report                                                                 Date                   Final Action
                                       Title                                     Management
Number                                                                Issued                  Target Date
                                                                                  Decision
           Colorado District Office’s Servicing of 8(a)
 10-15                                                                9/30/10        *          9/30/11
           Business Development Program Participants
 ROM       SBA’s Administration of the Microloan Program
                                                                      12/28/09       *          6/30/11
 10-10     Under the Recovery Act
           NFR on Material Origination & Closing
 ROM
           Deficiencies Identified in SBA and Lender-                 3/31/10      7/1/10       9/30/10
 10-12
           Approved Recovery Act Loans
           Accuracy of Recovery Act Contract Award
 ROM       Obligations Reported to the Federal Procurement
                                                                      4/15/10      5/3/10       1/31/12
 10-14     Database System - Next Generation and
           Recovery.Gov
 11-03     Audit of SBA's FY 2010 Financial Statements                11/12/10       *            **
           Audit of SBA's FY 2010 Financial Statements -
 11-05                                                                12/15/10       *            **
           Management Letter
           Weaknesses Identified During the FY 2010 Federal
 11-06                                                                1/28/11        *            **
           Information Security Management Act Review
           SBA's Procurement of Information Technology
 11-08     Hardware and Software Through Isika                        2/25/11      3/30/11        **
           Technologies, INC.
 ROM       Improper Allotment of Recovery Act
                                                                      12/15/10     2/9/11       2/28/11
 11-01     Apportionments
 ROM       Lack of Documentation and Incorrect Accounting
                                                                      12/15/10     3/7/11       7/31/11
 11-02     for Recovery Act 7(A) Loan Guaranty Approvals
           America's Recovery Capital Loans Were Not
 ROM
           Originated and Closed in Accordance with SBA's              3/2/11      3/31/11     10/31/11
 11-03
           Policies and Procedures
*    Management decision dates vary with different recommendations.
**   Target dates vary with different recommendations.




                                                             26
                                                          Appendices

                                                            Appendix VII

                                     Summary of Significant Recommendations
                                     From Prior Semiannual Reporting Periods
                                     Without Final Action as of March 31, 2011*

                                                                                        Date of
  Report             Date                                                                          Final Action
                                                     Recommendation                   Management
  Number            Issued                                                                         Target Date
                                                                                       Decision
                                  Make cost-effective remediation of mainframe
                                  vulnerabilities a priority and ensure that
                                  migration of LAS occurs before the current
     8-13           5/14/08                                                             8/27/08     12/11/11
                                  mainframe contract expires in 2012 to reduce
                                  SBA's mainframe costs and timely mitigate
                                  associated security risks.
                                  Establish internal controls that ensure that OBO
                                  and DPGM are unable to modify contracts
     9-12           3/31/09                                                            3/31/09      10/15/09
                                  without the appropriate supporting
                                  documentation, including a statement of work.
                                  Conduct a program review to evaluate whether
                                  the growth in Alaska Native Corporation (ANC)
                                  8(a) obligations has adversely impacted, or will
     9-15           7/10/09       adversely impact, other 8(a) firms and the            8/4/09       7/15/09
                                  overall effectiveness of the 8(a) program and, if
                                  so, make programmatic revisions to minimize
                                  the adverse impact.
                                  Determine whether 8(a) firms owned by ANCs
                                  and tribes should continue to be exempt from the
     9-15           7/10/09       cap on total sole source awards in CFR 124.519        8/2/09       6/30/11
                                  and, if not; remove the exemption from this
                                  regulation.
                                  Seek recovery of $2.3 million from lenders on
     9-16           7/10/09       the loans listed in Appendices III and IV of the     8/27/09       6/30/10
                                  report.
                                  Fully implement the corrective action plan
                                  reported in SBA’s FY 2008 Performance and
     9-16           7/10/09                                                            7/28/09       9/30/10
                                  Accountability Report to reduce improper
                                  payments in the 7(a) Guaranty Loan Programs.
                                  Report the revised improper payment rate
     9-16           7/10/09                                                            9/26/09      11/15/09
                                  calculated by the OIG for FY 2008 to OMB.
                                  Take steps to modify the contract to require the
                                  Quality Assurance/Independent Verification and
                                  Validation (QA/IV&V) contractor to report all
     9-17           7/30/09       findings and recommendations to the Program          8/28/09       9/30/09
                                  Manager and an independent Quality Assurance
                                  manager designated by the Chief Information
                                  Officer (CIO).
* These are a subset of the universe of recommendations without final action.




                                                                     27
                                                        Appendices

                                                           Appendix VII

                                   Summary of Significant Recommendations
                                   From Prior Semiannual Reporting Periods
                                   Without Final Action as of March 31, 2011*

                                                                                       Date of
Report             Date                                                                           Final Action
                                                   Recommendation                    Management
Number            Issued                                                                          Target Date
                                                                                      Decision
                                Establish a process for reviewing and accepting
                                LMAS deliverables that complies with Systems
    9-17         7/30/09                                                              8/28/09       9/30/09
                                Development Methodology (SDM)
                                requirements.
                                Take steps to ensure that a well-defined
                                deliverable acceptance process is established for
    9-17         7/30/09                                                               9/3/09       4/30/11
                                the LMAS project in accordance with SBA’s
                                Enterprise Quality Assurance Plan.
                                Seek recovery of $1,250,088 on the guaranties
    9-18         8/25/09        paid on the 6 loans listed in Appendix IV of the      10/21/09     10/21/10
                                report.
                                Include detailed scopes of work, measurable
                                performance metrics, deliverables, and adequate
    9-18         8/25/09        acceptance criteria in service contracts to assist    9/11/09      12/31/10
                                the contractor staff in performing the reviews
                                and the Center in supervising them.
                                Determine the actions needed to achieve
                                compliance with statutory flood insurance
    10-01        10/20/09                                                              11/6/09      2/28/11
                                monitoring requirements and the cost
                                implications of achieving compliance.
                                Develop and execute a plan for achieving
                                compliance on existing and future loans.
                                Alternatively, if achieving compliance is
    10-01        10/20/09                                                              11/6/09     12/31/10
                                determined to be not cost effective, seek
                                additional funding or legislative change to the
                                statutory flood insurance requirement.
                                Revise SOP 50-52 to clarify what action(s)
                                servicing center personnel should take when
    10-01        10/20/09                                                              11/6/09      1/31/11
                                borrowers refuse to obtain required hazard
                                insurance.
                                Implement procedures at the servicing centers
                                that require a timely re-verification of insurance
    10-03        10/21/09       recoveries during the servicing of loans,              1/20/10      6/30/11
                                preferably between 6-months to 1 year after the
                                file is transferred to servicing.
                                Implement a process to monitor the audit logs of
    10-04        11/13/09                                                             12/11/09       6/1/10
                                all financial applications on a regular basis.
                                Either update the FY 2008 Data Quality Plan or
                                revise the information notice to include explicit
    10-08        2/26/10                                                               3/29/10       5/1/11
                                steps that will be taken to ensure data is
                                reviewed for accuracy and completeness.
*     These are a subset of the universe of recommendations without final action.
                                                                    28
                                                       Appendices

                                                          Appendix VII

                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                  Without Final Action as of March 31, 2011*

                                                                                      Date of
Report            Date                                                                             Final Action
                                                  Recommendation                    Management
Number           Issued                                                                            Target Date
                                                                                     Decision
                               Conduct an independent review to ensure that
 10-08           2/26/10       the Data Quality Plan or information notice            3/29/10        1/31/12
                               requirements have been fully implemented.
                               Ensure that OBO contracting personnel are held
 10-08           2/26/10                                                             3/29/10         3/30/11
                               accountable for the accuracy of FPDS data.
                               Revise SOP 50 10, Lender Development
                               Company Loan Programs, to require that
                               lenders use, among other things, (a) the actual
                               cash flow method to determine borrower              No Management
 10-10           3/23/10
                               repayment ability for businesses using accrual         Decision
                               accounting, (b) historical salary levels to
                               estimate officer salary, and (c) historical sales
                               data to make sales projections.
                               Evaluate the need to establish monetary or other
                               guidelines on the level of excess funds that
 10-10           3/23/10       CDCs should retain as a reserve for future            4/26/10        12/31/11
                               operations and/or invest in other local economic
                               development activities.
                               Implement the necessary controls to check the
                               reasonableness of data, including user prompts,
 ROM                           range checks, and the prevention of negative
                 12/4/09                                                             2/17/10         8/31/11
 10-04                         figures, in E-Tran to ensure the accuracy of
                               lender-reported job creation and retention
                               statistics.
                               Implement a data quality review and testing
 ROM
                 12/4/09       process to determine if job data is properly           2/2/10         8/31/11
 10-04
                               recorded, classified, and reported.
                               Determine whether the new jobs reported for
 ROM
                 12/4/09       ARC loans are data anomalies and if not, revise       2/17/10         8/31/11
 10-04
                               performance measures to report on jobs created.
                               Examine, verify, and test microloan data
                               reported by the intermediaries in MPERS to
 ROM                           ensure loan defaults are accurately reported and
                12/28/09                                                              3/1/10         6/30/11
 10-10                         that obvious inaccuracies and questionable
                               transactions reported by intermediaries are
                               identified and resolved.
*These are a subset of the universe of recommendations without final action.




                                                                   29
                                                         Appendices

                                                           Appendix VII

                                    Summary of Significant Recommendations
                                    From Prior Semiannual Reporting Periods
                                    Without Final Action as of March 31, 2011*

                                                                                       Date of
 Report             Date                                                                          Final Action
                                                    Recommendation                   Management
 Number            Issued                                                                         Target Date
                                                                                      Decision
                                 Require intermediaries to report in MPERS the
                                 technical assistance provided in relation to each
   ROM                           microloan made and use this data to analyze the
                  12/28/09                                                            2/24/10       6/30/11
   10-10                         effect technical assistance may have on the
                                 success of microloan borrowers and their ability
                                 to repay microloans.
                                 Implement the appropriate system controls to
                                 automatically identify the outstanding balances
   ROM
                  3/31/10        of all SBA loans made to a borrower to ensure         7/1/10       9/30/10
   10-12
                                 SBA lending limits will not be exceeded upon
                                 the approval of a subsequent loan.
                                 Require Wachovia SBA Lending, Inc. to bring
                                 loan number 3406815002 into compliance with
   ROM                           SBA requirements, or, if not possible, flag the
                  3/31/10                                                              7/1/10       9/30/10
   10-12                         loan as having an equity injection deficiency for
                                 consideration during the purchase review should
                                 the loan default and purchase be requested.
                                 Reconcile Recovery Act contract awards
                                 reported to FPDS-NG and Recovery.Gov and
   ROM                           report to Recovery.Gov all non-competitive
                  4/15/10                                                              5/3/10       1/31/12
   10-14                         contract awards previously not reported to
                                 Recovery.Gov including the eight contract
                                 actions identified by the OIG.
                                 Take steps to ensure that no procurement action
   ROM
                  6/29/10        is taken prior to the approval of an acquisition     3/28/11       6/30/11
   10-16
                                 plan by the AA for M&A.
                                 Exclude the CRM contract awarded to Copper
   ROM                           River from SBA calculations used to determine
                  6/29/10                                                             3/28/11       9/30/11
   10-16                         the number of 8(a) program contracts and small
                                 business contracts for fiscal year 2009.
                                 Work with the OCIO to establish measurable
                                 outcomes for the CRM initiative and identify the
   ROM                           likelihood that a contractor could meet
                  6/29/10                                                             3/28/11       5/15/11
   10-16                         measurable outcomes in contract evaluation
                                 criteria for any future contracts under this
                                 initiative.
                                 Repair $18,960 in guaranties on the 4 loans
                                 purchased above the 50-percent guaranty level
   10-12          8/25/10                                                             3/28/11       5/31/11
                                 for which technical assistance was not
                                 completed.
*These are a subset of the universe of recommendations without final action.

                                                                    30
                                                        Appendices

                                                           Appendix VII

                                   Summary of Significant Recommendations
                                   From Prior Semiannual Reporting Periods
                                   Without Final Action as of March 31, 2011*

                                                                                          Date of
Report             Date                                                                              Final Action
                                                     Recommendation                     Management
Number            Issued                                                                             Target Date
                                                                                         Decision
                                Annotate the loan files for the 30 current loans
    10-12        8/25/10        where technical assistance was not provided for a        3/28/11       5/31/11
                                possible repair of $268,190 should the loans default.
                                Coordinate with FEMA and HUD to formalize a
                                memorandum of understanding with HUD, which
    10-13         9/2/10        defines the functions of each agency in a manner         1/12/11      12/31/11
                                that is consistent with FEMA’s duplicate benefits
                                regulation and other applicable regulations.
                                Coordinate with HUD to develop more appropriate
                                procedures to reduce duplication of benefits,
    10-13         9/2/10        including the development of a duplication of            1/12/11      12/31/11
                                benefits instructional guide to be incorporated into
                                HUD’s Information Toolkit provided to grantees.
                                Revise the LMAS QA plan to incorporate all the
    10-14        9/13/10        components required by the enterprise-wide QA            12/21/10      6/13/10
                                plan.
                                Take steps to hold TestPros accountable for
    10-14        9/13/10                                                                 10/19/10      6/13/10
                                performing the activities specified in its contract.
    ROM                         Review each of the 38 identified loans to determine
                 9/22/10                                                                 12/17/10      4/30/11
    10-18                       if they were made to eligible companies.
                                For any loans that SBA determines were made to             No
    ROM
                 9/22/10        ineligible companies, cancel the loan guaranties and    Management
    10-18
                                collect any associated interest paid to the lenders.     Decision
                                Conduct additional reviews of ARC loans outside
                                the scope of this NFR (for example, loans disbursed
    ROM                         after April 30, 2010 and/or undisbursed loans) to
                 9/22/10                                                                 12/17/10      4/30/11
    10-18                       identify other ARC loans made to affiliated
                                companies that were inappropriately approved
                                under delegated authority.
                                Reexamine the credit scoring matrix used by one
    ROM                         lender that made 18 of the 32 loans with material
                 9/24/10                                                                 10/28/10      3/31/11
    10-19                       deficiencies to ensure it complies with SBA
                                requirements.

*     These are a subset of the universe of recommendations without final action.




                                                                    31
                                                        Appendices

                                                           Appendix VII

                                   Summary of Significant Recommendations
                                   From Prior Semiannual Reporting Periods
                                   Without Final Action as of March 31, 2011*

                                                                                        Date of
Report             Date                                                                              Final Action
                                                   Recommendation                     Management
Number            Issued                                                                             Target Date
                                                                                       Decision
                                Implement a process for providing feedback to
    ROM
                 9/24/10        SBA employees and lenders when deficiencies            12/17/10        9/30/11
    10-19
                                are identified.
                                For the 25 purchased loans with material
    ROM                         deficiencies, require the lenders to bring the       No Management
                 9/24/10
    10-19                       loans into compliance or recover the $375,259 in        Decision
                                guaranties paid.
                                Obtain the certification for the loan missing only
    ROM
                 9/24/10        an immigration certification, or recover $3,248        10/28/10        3/31/11
    10-19
                                from the lender.
                                Flag the other loans that have not yet been
    ROM                         purchased to ensure the loan deficiencies are        No Management
                 9/24/10
    10-19                       properly addressed at the time of the purchase          Decision
                                review.
                                Review staffing levels of all the district offices
    10-15        9/30/10        to ensure that BDSs can devote the time needed          3/23/11        9/30/11
                                to adequately service their 8(a) participants.

*     These are a subset of the universe of recommendations without final action.




                                                                    32
                                      Appendices

                                       Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                           Recommendation
Number                                Issued
         Usefulness of the Small                 Add the mandatory "Minority Code" data field to
         Business Innovation                     Tech-Net.
 11-02                               11/12/10
         Research Tech-Net
         Database
         Usefulness of the Small                 Designate the "Principal Investigator" and "Agency
         Business Innovation                     Solicitation Topic Code" as required data field and
 11-02                               11/12/10
         Research Tech-Net                       inform participating agencies of these designations.
         Database
         Usefulness of the Small                 Add a database control that prevents agencies from
         Business Innovation                     submitting their award data when any of the mandatory
 11-02                               11/12/10
         Research Tech-Net                       data fields are left blank.
         Database
                                                 Require that participating agencies submit award
         Usefulness of the Small
                                                 information to SBA and other participating agencies at
         Business Innovation
 11-02                               11/12/10    the time of award, as required by Small Business
         Research Tech-Net
                                                 Innovation Research (SBIR) Policy Directive, Section
         Database
                                                 7(a) (iii).
                                                 Recommend the Chief Information Officer (CIO)
                                                 coordinate with SBA program offices to: improve the
                                                 vulnerability tracking and monitoring process to fully
                                                 address high and medium risk vulnerabilities for key
                                                 financial systems; ensure that the vulnerability reports
         Audit of SBA's FY 2010                  are reviewed and analyzed on a regular basis;
 11-03                               11/12/10
         Financial Statements                    periodically monitor the existence of necessary services
                                                 and protocols running on servers and network devices;
                                                 and develop a more thorough approach to track and
                                                 mitigate patch management and configuration
                                                 management vulnerabilities identified during monthly
                                                 scans.
                                                 Recommend the CIO coordinate with SBA program
                                                 offices to prevent users from anonymously connecting
         Audit of SBA's FY 2010
 11-03                               11/12/10    unauthorized devices by developing and implementing
         Financial Statements
                                                 procedures to ensure mandatory domain authentication
                                                 for IP address issuance.
                                                 Recommend the CIO coordinate with SBA program
                                                 offices to improve the Plan of Actions and Milestones
         Audit of SBA's FY 2010                  (POA&M) review and approval process for key
 11-03                               11/12/10
         Financial Statements                    financial systems. In addition, include all unresolved
                                                 weaknesses on the POA&M (including vulnerabilities
                                                 identified at service providers).




                                                33
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Recommend the CIO coordinate with SBA program
                                                offices to improve the POA&M review and approval
         Audit of SBA's FY 2010
 11-03                              11/12/10    process for key financial systems. In addition, include
         Financial Statements
                                                all unresolved weaknesses on the POA&M (including
                                                vulnerabilities identified at service providers).
                                                Recommend the CIO coordinate with SBA program
         Audit of SBA's FY 2010                 offices to develop and implement procedures for user
 11-03                              11/12/10
         Financial Statements                   access reviews to ensure that proper access rights are
                                                set for financial subsystems.
                                                Recommend the CIO coordinate with SBA program
         Audit of SBA's FY 2010
 11-03                              11/12/10    offices to oversee the review and validation of financial
         Financial Statements
                                                system accounts on a periodic basis.
                                                Recommend the CIO coordinate with SBA program
         Audit of SBA's FY 2010
 11-03                              11/12/10    offices to implement a process to monitor the audit logs
         Financial Statements
                                                of all financial applications on a regular basis.
                                                Recommend the CFO implement procedures and
         Audit of SBA's FY 2010
 11-03                              11/12/10    conduct audits of financial system software changes to
         Financial Statements
                                                ensure all changes are sufficiently approved and tested.
                                                Recommend the CIO restrict access to software
         Audit of SBA's FY 2010                 program libraries based on the principle of least
 11-03                              11/12/10
         Financial Statements                   privilege, and periodically review access to the
                                                libraries.
                                                Recommend the CIO separate user and data
         Audit of SBA's FY 2010                 administration functions for financial systems, or
 11-03                              11/12/10
         Financial Statements                   implement compensating IT controls such as
                                                management review of user administration functions.
                                                Recommend the CIO develop a comprehensive security
         Audit of SBA's FY 2010                 education and training program for all IT security
 11-03                              11/12/10
         Financial Statements                   personnel and a method for monitoring the training
                                                program.
                                                Recommend the CIO implement and enforce the
                                                procedures documented in SOP 90.47.2 for sanitizing
         Audit of SBA's FY 2010
 11-03                              11/12/10    media to be disposed and for maintaining a log of
         Financial Statements
                                                employees who sanitize media to validate the
                                                appropriateness of the sanitization process.
                                                Recommend the CIO coordinate with program offices
                                                using end-user programs containing sensitive data,
         Audit of SBA's FY 2010
 11-03                              11/12/10    such as Personally Identifiable Information and
         Financial Statements
                                                financial data, to implement end-user computing
                                                procedures in accordance with the guidance.




                                               34
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                            Recommendation
Number                               Issued
                                                Recommend the CIO enforce an organization-wide
         Audit of SBA's FY 2010     11/12/10    configuration management process, to include policies
 11-03
         Financial Statements                   and procedures for maintaining documentation that
                                                supports testing and approvals of software changes.
                                                Enhance existing internal control over the quarterly
                                                review process by continuing to educate all SBA
                                                program offices regarding the open obligation review
         Audit of SBA's FY 2010                 process to ensure information is submitted in a timely
 11-05   Financial Statements -     12/15/10    and consistent manner, that offices are proactive in
         Management Letter                      addressing invalid or expired Undelivered Orders
                                                (UDOs), that office supervisors certify the validity of
                                                the UDOs, and that the comments field on the report
                                                clearly indicate the validity of the UDOs
                                                Enhance existing internal control over the quarterly
                                                review process by continuing to monitor Headquarter
         Audit of SBA's FY 2010
                                                controls over the program office‘s open obligations
 11-05   Financial Statements -     12/15/10
                                                quarterly review process.
         Management Letter
                                                This will ensure compliance with stated policies and
                                                procedures.
                                                Research and resolve the issues identified; specifically,
         Audit of SBA's FY 2010                 obtain sufficient documentation to support the UDO or
 11-05   Financial Statements -     12/15/10    modify contracts to deobligate undisbursed funds for
         Management Letter                      which the period of availability for disbursement has
                                                expired.
                                                Reiterate to the appropriate personnel the importance
         Audit of SBA's FY 2010
                                                of consistently following up on quarterly obligation
 11-05   Financial Statements -     12/15/10
                                                review results to determine whether the remaining
         Management Letter
                                                UDO balances are valid or should be de-obligated.
         Audit of SBA's FY 2010                 Work with the Washington District Office Director to
 11-05   Financial Statements -     12/15/10    reinforce the importance of retaining copies of each
         Management Letter                      approved employee cost allocation survey.
                                                Continue to work with Colson to implement consistent
         Audit of SBA's FY 2010
                                                edit checks so that a meaningful monthly comparison
 11-05   Financial Statements -     12/15/10
                                                and reconciliation can be made between the errors
         Management Letter
                                                identified by Colson and those identified by SBA.




                                               35
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                            Recommendation
Number                               Issued
                                                Reinforce the importance of properly reviewing the
         Audit of SBA's FY 2010                 327 Action Form and Loan Authorizations Agreements
 11-05   Financial Statements -     12/15/10    when entering loan data in the LAUD screen for
         Management Letter                      referral to ensure the referrals are proper, complete, and
                                                timely.
                                                Recommend the Office of Portfolio Management
                                                Director work with the Chief Information Officer to
         Audit of SBA's FY 2010
                                                conduct an in-depth analysis of the existing Treasury
 11-05   Financial Statements -     12/15/10
                                                referral protocol to identify and correct the program
         Management Letter
                                                coding that is preventing the 139 charged-off loans
                                                from being automatically referred.
                                                Recommend the Office of Portfolio Management
         Audit of SBA's FY 2010                 Director work with the Chief Information Officer to
 11-05   Financial Statements -     12/15/10    implement interim, quarterly monitoring reviews to
         Management Letter                      identify all charged-off loans where the automatic
                                                referral did not occur.
                                                Recommend the Office of Portfolio Management
         Audit of SBA's FY 2010                 Director work with the Chief Information Officer to
 11-05   Financial Statements -     12/15/10    update the system‘s program logic to ensure that
         Management Letter                      qualifying loans with executed due process notices will
                                                be automatically referred.
                                                Recommend the Office of Portfolio Management
         Audit of SBA's FY 2010                 Director work with the Chief Information Officer to
         Financial Statements -                 perform an analysis of loans charged-off in prior years
 11-05                              12/15/10
         Management Letter                      to identify and correct any Debt Collection
                                                Improvement Act (DCIA) non-compliance issues
                                                noted.
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010                 Operations Director in conjunction with the Office of
 11-05   Financial Statements -     12/15/10    Portfolio Management Director regularly monitor loans
         Management Letter                      coded as workouts to ensure any agreements reached in
                                                liquidation are kept.
                                                Recommend the Office of Financial Program
                                                Operations Director in conjunction with the Office of
         Audit of SBA's FY 2010                 Portfolio Management Director provide monthly
 11-05   Financial Statements -     12/15/10    reports of charged-off loans with status code 99
         Management Letter                      (workout) to the Disaster Center Directors to provide a
                                                means to periodically review the status of charged-off
                                                loans.




                                               36
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Recommends the Office of Financial Program
                                                Operations Director in conjunction with the Office of
                                                Portfolio Management Director implement a
         Audit of SBA's FY 2010                 semiannual review procedure for loans in workout
 11-05   Financial Statements -     12/15/10    status to begin 180 days following charge-off and
         Management Letter                      thereafter. This review should be performed to ensure
                                                that loans for which a workout is not feasible are
                                                promptly referred to Treasury for servicing, as
                                                appropriate.
                                                Recommend the Office of Financial Program
                                                Operations Director in conjunction with the Office of
                                                Portfolio Management Director complete a review of
         Audit of SBA's FY 2010                 the 838 loans coded workout to determine if the
 11-05   Financial Statements -     12/15/10    borrower(s) have consistently complied with the terms
         Management Letter                      of the workout agreement. If it is determined that the
                                                borrower(s) have not complied with the terms of the
                                                workout agreement; update the status code to refer
                                                those to Treasury for servicing.
         Audit of SBA's FY 2010                 Recommend the Office of Financial Program
 11-05   Financial Statements -     12/15/10    Operations Director Continue to allocate resources as
         Management Letter                      required to timely address charge-offs.
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010
                                                Operations Director reinforce the importance of a
 11-05   Financial Statements -     12/15/10
                                                thorough review of all 327 actions by SBA personnel
         Management Letter
                                                (e.g., issuance of a memorandum, training).
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010
                                                Operations Director perform periodic (quarterly) quality
 11-05   Financial Statements -     12/15/10
                                                assurance reviews of 327 charge-off actions to ensure
         Management Letter
                                                all appropriate personnel have signed the form.
                                                Recommend the Office of Financial Program
                                                Operations Director reinforces, through the issuance of
         Audit of SBA's FY 2010
                                                memorandum, the importance of a site visit for each
 11-05   Financial Statements -     12/15/10
                                                loan prior to purchase, fully completing the 327 Action
         Management Letter
                                                Form, and adequately documenting borrower/guarantor
                                                demand letter disbursements.
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010                 Operations Director ensure all staff members are
 11-05   Financial Statements -     12/15/10    accurately completing the Guaranty Charge-off
         Management Letter                      Checklist and verifying the wrap up report or other
                                                relevant documentation is retained prior to charge-off.




                                               37
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010                 Operations Director reinforce, through the issuance of
 11-05   Financial Statements -     12/15/10    memorandum, the review of credit bureau reports prior
         Management Letter                      to charge-off, and the retention of these reports either
                                                in electronic or physical format.
                                                Recommend the Office of Financial Program
                                                Operations Director reinforce, to approving officials,
                                                the importance of a thorough review and reconciliation
         Audit of SBA's FY 2010
                                                of the interest payment information within the
 11-05   Financial Statements -     12/15/10
                                                Guaranty Purchase Tracking System (GPTS), on the
         Management Letter
                                                SBA Form 327, and in the supporting documentation
                                                (i.e., the note) in the loan file to ensure agreement at
                                                time of purchase.
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010
                                                Operations Director notify the lenders of the improper
 11-05   Financial Statements -     12/15/10
                                                billing and correct the outstanding receivables for these
         Management Letter
                                                two loan balances in the Loan Accounting System.
                                                Recommend the Office of Financial Program
                                                Operations Director reinforce the importance of the
         Audit of SBA's FY 2010
                                                approving official‘s review and reconciliation of
 11-05   Financial Statements -     12/15/10
                                                information in GPTS, SBA Form 327, and supporting
         Management Letter
                                                documentation in the loan file, to ensure they are in
                                                agreement at time of charge-off.
                                                Recommend the Office of Financial Program
         Audit of SBA's FY 2010                 Operations Director reviews and modifies the system
 11-05   Financial Statements -     12/15/10    access configurations in FoxPro to prohibit individuals
         Management Letter                      from both recommending approval and approving loan
                                                applications.
                                                Recommend the Office of Credit Risk Management
         Audit of SBA's FY 2010                 Director establish a management-level oversight
 11-05   Financial Statements -     12/15/10    procedure to ensure OCRM staff is closely monitoring
         Management Letter                      and communicating with lenders timely in order to
                                                address outstanding issues requiring corrective action.
                                                Recommend the Office of Credit Risk Management
         Audit of SBA's FY 2010
                                                Director ensures risk-based reviews are completed in
 11-05   Financial Statements -     12/15/10
                                                accordance with all review components identified in
         Management Letter
                                                SOP 51 00.
                                                Recommend the Associate Administrator for the Office
         Audit of SBA's FY 2010                 of Disaster Assistance develop and implement explicit
 11-05   Financial Statements -     12/15/10    follow up procedures related to outstanding remittances
         Management Letter                      to ensure that all duplicative benefit amounts are
                                                recuperated.



                                               38
                                     Appendices

                                      Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Recommend the Associate Administrator for Disaster
         Audit of SBA's FY 2010
                                                Assistance reinforce the importance of a thorough
         Financial Statements -
 11-05                              12/15/10    review by approving officials of the Duplication of
         Management Letter
                                                Benefits (DOB) worksheet to ensure the correct
                                                remittance is calculated.
                                                Recommend the Chief Human Capital Officer work
         Audit of SBA's FY 2010                 with the HubZone Program Office Director to
 11-05   Financial Statements -     12/15/10    emphasize to all supervisors and timekeepers the
         Management Letter                      importance of adhering to SBA policies and
                                                procedures.
                                                Recommend the Chief Human Capital Officer work
                                                with the HubZone Program Office Director to develop
                                                and implement controls to more effectively monitor the
         Audit of SBA's FY 2010
                                                execution of its policies and procedures, particularly
 11-05   Financial Statements -     12/15/10
                                                related to the authorization of payroll transactions and
         Management Letter
                                                the performance of leave audits, to ensure that they are
                                                being followed (e.g., develop policies that require
                                                quarterly audits of leave discrepancies).
                                                Recommend the Chief Human Capital Officer revise
         Audit of SBA's FY 2010                 the current methodology to maintain and periodically
 11-05   Financial Statements -     12/15/10    update SBA‘s organizational structure, functional
         Management Letter                      statements, and charts. Further, the revised
                                                methodology should be documented in the SOP.
                                                Recommends the Chief Human Capital Officer
         Audit of SBA's FY 2010                 reinforce through management training, the importance
 11-05                              12/15/10
         Financial Statements -                 of properly and fully completing the Separation
         Management Letter                      Checklist.
                                                Recommend the Chief Human Capital Officer takes
         Audit of SBA's FY 2010                 action to ensure the system malfunction that prevented
 11-05   Financial Statements -     12/15/10    the SF-50 from being properly signed or authenticated
         Management Letter                      is corrected.

                                                Recommend the Associate Administrator for
         Audit of SBA's FY 2010
                                                Management and Administration obtain the delegation
 11-05   Financial Statements -     12/15/10
                                                of authority and line of succession memoranda from
         Management Letter
                                                the five field office directors in the sample.




                                               39
                                     Appendices

                                       Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Recommend the Associate Administrator for
                                                Management and Administration perform a review of
         Audit of SBA's FY 2010
                                                all delegation of authority and line of succession
 11-05   Financial Statements -     12/15/10
                                                memoranda currently maintained in the Office of
         Management Letter
                                                Administrative Services permanent files to ensure that
                                                delegations for all offices are on file.
                                                Recommend the Associate Administrator for
         Audit of SBA's FY 2010
                                                Management and Administration identify all offices
 11-05   Financial Statements -     12/15/10
                                                that have not submitted the memoranda, and work with
         Management Letter
                                                those personnel to obtain the missing documents.
                                                Recommend the Associate Administrator for
                                                Management and Administration consider developing
         Audit of SBA's FY 2010
                                                an annual review process to ensure all delegation of
 11-05   Financial Statements -     12/15/10
                                                authority and line of succession memoranda are up-to-
         Management Letter
                                                date and appropriately maintained by the Office of
                                                Administrative Services.
                                                Update the list of Major Systems to include all the
         Audit of SBA’s
                                                interfaces between each system and all other systems
         Compliance with the
                                                and networks, including those not operated by, or under
 11-06   Federal Information         1/28/11
                                                the control of the agency and obtain written
         Security Management Act
                                                Interconnection Security Agreements for every SBA
         for FY 2010
                                                system that has an interconnection to another system.
                                                Establish a program at SBA to manage, control and
         Audit of SBA’s
                                                monitor system interconnections throughout their
         Compliance with the
                                                lifecycle. The program should encompass planning,
 11-06   Federal Information         1/28/11
                                                establishing, maintaining and terminating system
         Security Management Act
                                                interconnections, including enforcement of security
         for FY 2010
                                                requirements.
         Audit of SBA’s                         Develop configuration management policies and
         Compliance with the                    procedures that address purpose, scope, roles,
 11-06   Federal Information         1/28/11    responsibilities, management commitment,
         Security Management Act                coordination among organizational entities, and
         for FY 2010                            compliance.
         Audit of SBA’s                         Develop and maintain a centralized inventory of all
         Compliance with the                    agency hardware and software.
 11-06   Federal Information         1/28/11
         Security Management Act
         for FY 2010




                                               40
                                     Appendices

                                       Appendix VIII

                          Summary of Significant Recommendations
                           October 1, 2010 through March 31, 2011

Report                                Date
                  Title                                           Recommendation
Number                               Issued
                                                Revise the SBA Certification and Accreditation
         Audit of SBA’s
                                                Program Description procedural document to reflect
         Compliance with the
                                                the risk management framework approach established
 11-06   Federal Information         1/28/11
                                                in National Institute of Standards and Technology
         Security Management Act
                                                (NIST) SP 800-37, Rev.1 and the current POA&M
         for FY 2010
                                                process.
                                                Re-evaluate the technical, operational and management
         Audit of SBA’s
                                                controls of Eagan Mainframe System and Joint
         Compliance with the
                                                Administrative Accounting System (JAAMS) at the
 11-06   Federal Information         1/28/11
                                                appropriate Federal Information Processing Standard
         Security Management Act
                                                (FIPS) 199 level using guidance provided by NIST SP
         for FY 2010
                                                800-53 and NIST SP 800-53A.
         Audit of SBA’s                         Modify the POA&M reporting tool to comply with the
         Compliance with the                    requirements set forth in OMB Memorandum 04-25.
 11-06   Federal Information         1/28/11
         Security Management Act
         for FY 2010
         Audit of SBA’s                         Develop and test system disaster recovery plans for all
         Compliance with the                    of SBA’s major systems at least annually and initiate
 11-06   Federal Information         1/28/11    any necessary corrective actions based on test results.
         Security Management Act
         for FY 2010
         Audit of SBA’s                         Enforce SOP 90-47 2 requirements for contractor
         Compliance with the                    background investigations and perform periodic
 11-06   Federal Information         1/28/11    reviews to ensure that SBA contractors have completed
         Security Management Act                the clearance process prior to accessing sensitive
         for FY 2010                            information.
         Audit of SBA’s                         Enforce SOP 90-47 2 requirements for contractor
         Compliance with the                    background investigations and perform periodic
 11-06   Federal Information         1/28/11    reviews to ensure that SBA contractors have completed
         Security Management Act                the clearance process prior to accessing sensitive
         for FY 2010                            information.
         Processing of Insurance                Recover $625,880 of DOBs identified in this audit that
         Recovery Checks at the                 were improperly returned to borrowers and $529,444 of
 11-07                               2/9/11
         Disaster Loan Servicing                DOBs identified in this audit that were outside of the
         Centers                                scope of the sample.
         Processing of Insurance                Identify and recover other DOBs improperly returned
         Recovery Checks at the                 during FY 2008, FY 2009, and FY 2010.
 11-07                               2/9/11
         Disaster Loan Servicing
         Centers
         Processing of Insurance                Assign the processing of insurance recovery checks to
         Recovery Checks at the                 selected individual(s) at each center and provide them
 11-07                               2/9/11
         Disaster Loan Servicing                training to allow them to become proficient in
         Centers                                calculating duplication of benefits.

                                               41
                                      Appendices

                                        Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                            Recommendation
Number                                Issued
                                                 Ensure the servicing centers document all of the
         Processing of Insurance
                                                 information related to the decision to return or retain
         Recovery Checks at the
 11-07                                2/9/11     each check for future reference.
         Disaster Loan Servicing
         Centers
                                                 Instruct the contracting officer to immediately
         SBA's Procurement of
                                                 terminate contracts SBAHQ-09-D-0009, SBAHQ-10-
         Information Technology
                                                 D-0001, and Blanket Purchase Agreement (BPA)
 11-08   Hardware and Software        2/25/11
                                                 SBAHQ-10-A-0001 and re-solicit the information
         Through Isika
                                                 technology (IT) hardware and software requirement
         Technologies, INC.
                                                 using full and open competition procedures.
         SBA's Procurement of                    Implement and provide annual training to contracting
         Information Technology                  personnel on acquisition planning, the appropriate use
 11-08   Hardware and Software        2/25/11    of North American Industry Classification System
         Through Isika                           (NAICS) codes and the Non-manufacturer Rule.
         Technologies, INC.
                                                 Exclude contracts SBAHQ-09-D-0009, SBAHQ-10-D-
         SBA's Procurement of
                                                 0001, and Blanket Purchase Agreement (BPA)
         Information Technology
                                                 SBAHQ-10-A-0001 and all associated delivery orders
 11-08   Hardware and Software        2/25/11
                                                 and BPA calls from SBA calculations used to
         Through Isika
                                                 determine the number of 8(a) program contracts and
         Technologies, INC.
                                                 small business contracts for fiscal years 2009 and 2010.
         SBA's Procurement of                    Conduct a comprehensive review of data submitted to
         Information Technology                  the Federal Procurement Data System – Next
 11-08   Hardware and Software        2/25/11    Generation (FPDS-NG) for SBA contracts awarded to
         Through Isika                           iTechnologies, reconcile all discrepancies identified,
         Technologies, INC.                      and correct any inaccurately reported data.
                                                 Recommend the Chief Financial Officer ensures the
         Improper Allotment of
 ROM                                             newly implemented Funds Control System has
         Recovery Act                12/15/10
 11-01                                           adequate system controls in place to prevent allotments
         Apportionments
                                                 from exceeding apportioned amounts.
                                                 Recommend the Office of Financial Program
                                                 Operations Director reinforce the importance of
                                                 effective review of loan guaranty applications by a loan
         Lack of Documentation
                                                 officer and supervisory loan officer to ensure that loan
 ROM     and Incorrect Accounting
                                     12/15/10    files contain proper documentation to support the
 11-02   for Recovery Act 7(A)
                                                 approval or denial determination, and loan guaranty
         Loan Guaranty Approvals
                                                 transactions are properly recorded in the Loan
                                                 Accounting System and that transactions are posted to
                                                 the proper program and financing accounts.




                                                42
                                      Appendices

                                        Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                            Recommendation
Number                                Issued
                                                 Flag all 56 loans to ensure the deficiencies are properly
         America's Recovery
                                                 addressed if the loans default and are submitted for
         Capital Loans Were Not
 ROM                                             purchase. Further, notify the Office of Inspector
         Originated and Closed in     3/2/11
 11-03                                           General of any denials, repairs, withdrawals, or
         Accordance with SBA's
                                                 cancellations of SBA’s guaranties made as a result of
         Policies and Procedures
                                                 the deficiencies identified during the purchase reviews.
                                                 Notify the loan servicing center responsible for
         America's Recovery
                                                 purchasing defaulted America's Recovery Capital
         Capital Loans Were Not
 ROM                                             (ARC) loans of the high number of deficiencies
         Originated and Closed in     3/2/11
 11-03                                           identified and require the center to carefully review all
         Accordance with SBA's
                                                 ARC loans for compliance with SBA’s requirements
         Policies and Procedures
                                                 during its purchase review.
         America's Recovery                      Provide feedback to the SBA loan officers who
         Capital Loans Were Not                  approved the ARC loans in which deficiencies were
 ROM                                             identified to prevent similar deficiencies in the
         Originated and Closed in     3/2/11
 11-03                                           approval of other SBA loans.
         Accordance with SBA's
         Policies and Procedures
         America's Recovery                      Notify the improper payment review team of the high
         Capital Loans Were Not                  rate of improper ARC loan guaranties identified during
 ROM                                             this audit to ensure the proper estimation of improper
         Originated and Closed in     3/2/11
 11-03                                           payments in the ARC loan program.
         Accordance with SBA's
         Policies and Procedures
                                                 Research the $21,627,140 in Appendix I to determine
 ROM     Quality of Recovery Act                 whether the award has been made or the funds should
                                      3/22/11
 11-04   Data on Public Websites                 be de-obligated. This research should result in these
                                                 actions being posted to FPDS.gov.
                                                 Deploy an independent statistical verification and
 ROM     Quality of Recovery Act
                                      3/22/11    validation of all SBA transactions awarded and
 11-04   Data on Public Websites
                                                 subsequently reported to FPDS.gov.
                                                 Research the $695,157 in Appendix II to determine the
                                                 disposition of these awards and whether Recovery Act
 ROM     Quality of Recovery Act
                                      3/22/11    funds were actually used funds the awards. If not, these
 11-04   Data on Public Websites
                                                 awards need to be corrected in PRISM, and FPDS.gov,
                                                 and the contract files.
                                                 Fully develop and implement a data quality plan that
 ROM     Quality of Recovery Act                 documents processes to ensure timely, accurate and
                                      3/22/11
 11-04   Data on Public Websites                 complete submission of contracts data to
                                                 USASpending.gov.
                                                 Take immediate action to remedy Panum Telecom
 ROM     Quality of Recovery Act                 LLC’s nonperformance on the contract.
                                      3/22/11
 11-04   Data on Public Websites




                                                43
                                      Appendices

                                        Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                           Recommendation
Number                                Issued
                                                 Implement continuous monitoring procedures to ensure
 ROM     Quality of Recovery Act                 that contractor-reported information is correct and
                                      3/22/11
 11-04   Data on Public Websites                 accurate, and that all prime contractors are accurately
                                                 reporting the use of subcontractors.
                                                 Research and resolve the $14,792,496 discrepancy
 ROM     Quality of Recovery Act
                                      3/22/11    shown in Appendix III to determine whether the award
 11-04   Data on Public Websites
                                                 has been made or the funds should be de-obligated.
                                                 Deploy vigorous quality controls such utilizing system
 ROM     Quality of Recovery Act                 generated reports to ensure that grant awards are
                                      3/22/11
 11-04   Data on Public Websites                 validated and released prior to transmitting grants data
                                                 to USASpending.gov.
                                                 Perform periodic reviews of grants data reported to
 ROM     Quality of Recovery Act
                                      3/22/11    USASpending.gov to ensure that data is accurate and
 11-04   Data on Public Websites
                                                 complete in compliance with the Transparency Act.
                                                 Work collaboratively with the CFO to develop and
 ROM     Quality of Recovery Act                 implement a data quality plan that documents processes
                                      3/22/11
 11-04   Data on Public Websites                 to ensure timely, accurate and complete submission of
                                                 grants data to USASpending.gov.
                                                 Implement continuous monitoring to ensure that
 ROM     Quality of Recovery Act
                                      3/22/11    intermediary-reported information is correct and
 11-04   Data on Public Websites
                                                 accurate.
                                                 Develop record designation and retention requirements
                                                 for all loan servicing documents and coordinate with
         Records Management and
                                                 the Office of Management & Administration to
         Documentation Process at
 11-10                                3/29/11    incorporate this guidance into SOP 50 52. The
         the Disaster Loan
                                                 requirements should specify which documents should
         Servicing Centers
                                                 be designated as records, and therefore retained, and
                                                 for how long.
                                                 Revise SOP 50 52 to include a requirement to preserve
                                                 the analyses performed to conduct all servicing actions.
         Records Management and                  A summary of the analysis should be present on the
         Documentation Process at                Form 327 and the detail of the analysis should
 11-10                                3/29/11
         the Disaster Loan                       accompany the SBA Form 327 action. The analysis
         Servicing Centers                       should include sufficient detail to permit an outside
                                                 party, not connected with the transaction, to verify the
                                                 accuracy of the decision.
         Records Management and                  Refine the electronic recordkeeping system to facilitate
         Documentation Process at                usability so that all documents of a specific type and
 11-10                                3/29/11
         the Disaster Loan                       for a specific range of dates can be located and
         Servicing Centers                       retrieved.




                                                44
                                      Appendices

                                        Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                            Recommendation
Number                                Issued
         Records Management and                  Develop written procedures pertaining to the electronic
         Documentation Process at                recordkeeping system and specify that all documents
 11-10                                3/29/11
         the Disaster Loan                       associated with active loans are to be included in the
         Servicing Centers                       electronic recordkeeping system.
                                                 Take the appropriate steps to amend SBA’s selection
                                                 criteria to include errors identified in SBA’s Office of
         Effectiveness of SBA’s
                                                 Government Contracting anomaly reports, data on 8(a)
 11-11   Surveillance Review          3/31/11
                                                 contracting activity, and inquiries to SBA’s 8(a)
         Process
                                                 Business Development staff on suspected problems on
                                                 8(a) contract execution.
                                                 Take the appropriate steps to amend SBA’s selection
         Effectiveness of SBA’s
                                                 criteria to eliminate those criteria that do not indicate
 11-11   Surveillance Review          3/31/11
                                                 risk with the contracting activity, i.e. availability to
         Process
                                                 staff within commuting distance.
                                                 Take the appropriate steps to develop and implement a
         Effectiveness of SBA’s                  strategy that ensures contracting activities that meet
 11-11   Surveillance Review          3/31/11    SBA’s selection criteria are identified, prioritized on a
         Process                                 nation-wide basis and targeted for a surveillance
                                                 review.
                                                 Take the appropriate steps to determine (a) the level of
         Effectiveness of SBA’s                  effort needed to establish an effective monitoring
 11-11   Surveillance Review          3/31/11    process for small business procurement activities and
         Process                                 (b) the amount of resources needed to implement such
                                                 a process.
                                                 Take the appropriate steps to request resources from
         Effectiveness of SBA’s
                                                 the Agency or through the annual budget process as
 11-11   Surveillance Review          3/31/11
                                                 appropriate (Based on the results from
         Process
                                                 Recommendation #3).
                                                 Revise Chapter 4, How Do I Perform a Surveillance
                                                 Review? and corresponding appendices, and update
                                                 SOP 60 02 7, Prime Contracts Program, to include (1)
         Effectiveness of SBA’s                  8(a) Business Development Program specific
 11-11   Surveillance Review          3/31/11    requirements as identified in the Partnership
         Process                                 Agreements and Procedural Notice 8000-632; and (2)
                                                 8(a) Business Development Program in Appendix 7,
                                                 Analysis of Contract Files and Appendix 8, Interview
                                                 Questions.




                                                45
                                      Appendices

                                        Appendix VIII

                           Summary of Significant Recommendations
                            October 1, 2010 through March 31, 2011

Report                                 Date
                   Title                                           Recommendation
Number                                Issued
                                                 Revise Chapter 4, How Do I Perform a Surveillance
                                                 Review? and corresponding appendices, and update
         Effectiveness of SBA’s
                                                 SOP 60 02 7, Prime Contracts Program, to modify
 11-11   Surveillance Review          3/31/11
                                                 definitions of rating categories to minimize subjectivity
         Process
                                                 within each rating category, including examples of
                                                 major and minor deficiencies.
                                                 Revise Chapter 4, How Do I Perform a Surveillance
                                                 Review and corresponding appendices, and update
         Effectiveness of SBA’s
                                                 SOP 60 02 7, Prime Contracts Program, to establish a
 11-11   Surveillance Review          3/31/11
                                                 formal follow-up process that ensures PCRs receive
         Process
                                                 copies of final reports and follow-up on deficiencies
                                                 and recommendations.
         Effectiveness of SBA’s                  Issue written instructions to remind surveillance review
 11-11   Surveillance Review          3/31/11    teams to address all interview and contract review
         Process                                 checklist questions.
                                                 Issue written instructions to remind surveillance review
         Effectiveness of SBA’s
                                                 teams to evaluate whether contracting activities are
 11-11   Surveillance Review          3/31/11
                                                 monitoring the performance of work requirements on
         Process
                                                 the contracts that they administer.
         Effectiveness of SBA’s                  Develop and implement a plan to ensure that
 11-11   Surveillance Review          3/31/11    surveillance review reports are issued to the contracting
         Process                                 activity that was reviewed within a specific timeframe.




                                                46
                                           Appendices

                                              Appendix IX

                               Cosponsored and Other Activities
                            October 1, 2010 through March 31, 2011

    Name/Subject of                     Name of
                                                                      Date of Event           Event Location
        Event                          Cosponsor(s)
Training Entrepreneurs     City of Miami Mayor's Office                  10/13/10            Miami, FL

                                                                   10/20/10, 11/17/10
International Market       Irvine Chamber of Commerce,
                                                                    12/14/10, 1/12/11,       Irvine, CA
Insights                   U.S. Commercial Service
                                                                     2/16/11, 3/16/11
                           Federal Reserve Bank of St. Louis,
Expanding Access to        Missouri Small Business &
Capital and Credit for     Technology Development Centers,               11/10/10            St. Louis, MO
Business in St. Louis      St. Louis Regional Chamber of
                           Commerce
National Congress of
American Indians 67th      National Congress of American
                                                                         11/17/10            Albuquerque, NM
Annual Convention and      Indians
Marketplace

Small Business Lending     Visa and International Council for
                                                                          12/8/10            Washington, DC
Fund Forum                 Small Businesses (ICSB)

                           The Surety & Fidelity Association of
                           America, Johnson & Wales
Rhode Island Small and     University thru the Rhode Island
                                                                     1/1/11-12/31/12
Emerging Contractor        Small Business Development Center,                                Providence, RI
                                                                        On-going
Development Program        Joseph G.E. Knight SCORE Chapter
                           13 and Center for Women &
                           Enterprise

Torrington Business        Platte Valley Bank, Wyoming               1/3/11-12/31/11
                                                                                             Torrington, WY
Roundtables                Women's Business Center                      On-going

                           U.S. Department of Commerce and
Native American Pavilion   National Association of Music               1/13-1/16/11          Anaheim, CA
                           Merchants (NAMM)

Procurement Workshop
                           Gateway Community College               1/21/11 and 2/25/11       New Haven, CT
Series
                                                                          1/22/11,
                                                                      2/8/11, 2/15/11,
Straight Talk 2011 &
                           SCORE Buffalo Niagara Chapter #45              2/22/11,           Buffalo, NY
Straight Talk Series
                                                                  3/1/11, 3/8/11, 3/15/11,
                                                                     3/22/11, 3/29/11




                                                      47
                                             Appendices

                                                Appendix IX

                                 Cosponsored and Other Activities
                              October 1, 2010 through March 31, 2011

    Name/Subject of                       Name of
                                                                      Date of Event         Event Location
        Event                           Cosponsor(s)
                             National Aeronautics and Space
Contact 2011 -               Administration, U.S. Army Corps of
                                                                         1/27/11           New Orleans, LA
Transmitting Opportunities   Engineers, Louisiana Procurement
                             Technical Assistance Center

Doing Business with the      Hispanic American Chamber of
                                                                         1/28/11           Boston, MA
Government                   Commerce

Conference and Expo for
                             Chamber of Latino Entrepreneurs             1/29/11           Santa Ana, CA
Latino Entrepreneurs

Entrepreneurial Mentor       Kauffman Foundation                   1/11-9/11- on-going     Nationwide
Corps (Pilot Phase)
Small Business
Educational Resource         Greater Des Moines Partnership        2/11-1/13, on-going     Des Moines, IA
Activities

SBA 7(a) & 504 Program       Business Finance Group, Inc.,
                                                                  2/11-8/31/11, on-going   Maryland
Lender Training              University of Maryland SBDC

National 8(a) Association    National 8(a) Association and U.S.
                                                                        2/1-2/2/11         Orlando, FL
2011 Winter Conference       Hispanic Chamber of Commerce
                             City of Burlington Community and
                             Economic Development Office,
Winter Business Fair         Champlain Valley Office of                  2/9/11            Burlington, VT
                             Economic Opportunity Micro
                             Business Development Program
Tibbetts/SBIR Hall of        Northrop Grumman Systems
                                                                         2/15/11           Washington, DC
Fame Awards Celebration      Corporation
                                                                                           San Francisco,
Small Business Resource      Asian, Inc., Asian Business             2/15/11, 3/31/11
                                                                                           CA; Los Altos,
Workshops Series             Association - Silicon Valley               on-going
                                                                                           CA
                             The City of Miami, Florida, Miami
The City of Miami            Community Redevelopment Agency,
ACCESS to Capital            ACCESS Miami, Accion USA,                   2/18/11           Miami, FL
Workshop                     Puerto Rican Chamber of Commerce,
                             Chase Bank, TD Bank
                             Coachella Valley Economic
Making the Coachella
                             Partnership, Indio Chamber of               2/24/11           Indio, CA
Valley SOAR
                             Commerce


                                                       48
                                            Appendices

                                               Appendix IX

                                 Cosponsored and Other Activities
                              October 1, 2010 through March 31, 2011

    Name/Subject of                       Name of
                                                                  Date of Event      Event Location
        Event                           Cosponsor(s)
Top Ten Asian American
Business
Presentation/Award &         U.S. Pan Asian American Chamber
                                                                                    San Francisco,
Asian American &             of Commerce Education Foundation         3/9/11
                                                                                    CA
Minority Business            California Chapter
Procurement Connections
Conference
How to do Business with
                             Columbia-Harlem Small Business
the City and Federal
                             Development Center, NYC
Government Contracting                                               3/10/11        New York, NY
                             Department of Small Business
and Procurement
                             Services
Workshop
SBA/Summit Insight
Government Contracts
                             Summit Insight LLC                      3/10/11        Washington, DC
Made Easier Jumpstart to
Success

Business Sessions at the
25th Annual Reservation
                             The National Center for American
Economic Summit and                                               3/14/11-3/17/11   Las Vegas, NV
                             Indian Enterprise Development
American Indian Bus.
Trade Fair (RES 2011)


From Planning to Funding:    SCORE Columbus Chapter #27,
Learn All the Options to     Economic & Community                    3/15/11        Columbus, OH
Fund Your Business           Development Institute

                             Entrepreneurship Bootcamp for
                             Veterans, M&T Bank, New York
                             Business Development Corporation,
OPERATION: Start Up
                             Onondaga Community College,             3/15/11        Syracuse, NY
and Grow
                             Onondaga Small Business
                             Development Center, The Tech
                             Garden, The WISE Center
                             Southern University and A&M
7th Annual "Connecting       College Center for Rural and Small
Businesses with Contracts"   Business Development, Louisiana         3/29/11        Baton Rouge, LA
Procurement Conference       Procurement Technical Assistance
                             Center




                                                       49
                                              Appendices

                                                 Appendix IX

                                   Cosponsored and Other Activities
                                October 1, 2010 through March 31, 2011

     Name/Subject of                       Name of
                                                                     Date of Event       Event Location
         Event                           Cosponsor(s)

                               Ohio Department of Development,
                               Ohio Business Connection, Southern
2011 Ohio Business             Ohio Procurement Outreach Center,
                                                                     3/22/11-3/23/11    Dayton, OH
Matchmaker                     Aeronautical Systems Center Small
                               Business Office, Defense Logistics
                               Agency


                               Orange County/Inland Empire SBDC
SBA Southern California
                               Regional Lead Center, Integrating        3/ 23/11        Anaheim, CA
8(a) Conference
                               Solutions, LLC


Columbia’s Got Capital: A      Missouri Small Business &
Small Business                 Technology Development Centers,
Matchmaking Event; an          Missouri Procurement Technical
event that is meant to bring   Assistance Centers, Missouri              3/30/11        Columbia, MO
small businesses and           Department of Economic
entrepreneurs together with    Development, Chapter 340 of the
commercial lenders             SCORE Association


Dynamic Networking for
                               U.S. Army Corps of Engineers              3/30/11        Fairmont, WV
Small Business

Workshop: Social Media -
                               Business and Professional Women           3/31/11        Cockeysville, MD
Recipe for Success
                                                                                        Boston, MA,
                                                                                        Silicon Valley,
Start Up America:
                               SCORE, American Express                                  CA Atlanta, GA
Reducing Barriers                                                      3/2011-6/11
                               Company                                                  Pittsburgh, PA
Roundtables
                                                                                        Minneapolis, MN
                                                                                        Boulder, CO

                               View from the Top, Inc., A&M         Every 3rd Tuesday
I-FEM Network                                                                           El Paso, TX
                               Montoya, Inc.                            3/11-2/12




                                                        50
                                       Appendices

                                           Appendix X

                               Legal Actions Summary
                        October 1, 2010 through March 31, 2011

                                                                                                Investigated
State   Program         Alleged Violation(s) Prosecuted                   Legal Action
                                                                                                Jointly With
                  The seller of a gas station presented false tax   Seller pled guilty.
                  information to SBA and the buyer in order to
                  artificially inflate the annual sales revenues
AL        BL                                                                                       None
                  of the gas station. The buyer was utilizing an
                  SBA Express loan of $76,000 to purchase the
                  business.
                  The president of three pizza restaurants          Individual pled guilty.
                  falsely reported that neither he, nor his
                  businesses, were involved in any pending
                  lawsuits or had any business indebtedness.
CA        BL                                                                                       None
                  He made these representations on three
                  separate loan applications for SBA-
                  guaranteed 7(a) loans in the amounts of
                  $300,000, $488,000, and $250,000.
                  The president of a sports bar provided false      President sentenced to
                  information on his SBA Form 912                   20 months in prison, 3
                  (Statement of Personal History) when              years probation, and
                  applying for a $1.8 million SBA-guaranteed        $1.8 million in
                  loan. Specifically, he indicated he had no        restitution.
GA        BL                                                                                       None
                  previous criminal history; when, in reality, he
                  had been arrested and convicted on numerous
                  occasions for various crimes including
                  driving under the influence, simple assault,
                  and possession of illegal substances.
                  The president/part-owner of an Illinois           President/part-owner
                  corporation conspired with others to submit a     sentenced to
                  fraudulent loan application to the SBA and a      15 months in prison, 3
                  lender in order to obtain an SBA- guaranteed      years supervised release,
                  loan of $1.24 million for purchase of a           and restitution of
 IL       BL                                                                                       None
                  gasoline station. The loan application            $953,736. After his
                  included documents falsely showing that his       imprisonment, he will be
                  corporation possessed adequate cash funds         transferred to the
                  for the required equity injection.                DHS/ICE for
                                                                    deportation.
                  An entrepreneur obtained multiple SBA-            The entrepreneur was
                  guaranteed bank loans totaling $121,695 to        sentenced to 15 months
                  purchase Egyptian artifacts for two art-          in prison; 5 years
                  exhibition companies that he created. He          supervised release, and
                                                                                                 FBI, DEA
 IL       BL      submitted false invoices and letters              restitution totaling
                  supporting purchases of collateral artifacts      $63,871.
                  that were never finalized and then diverted
                  the loan proceeds to personal accounts that
                  he used to support a lavish lifestyle.


                                                 51
                                       Appendices

                                           Appendix X

                               Legal Actions Summary
                        October 1, 2010 through March 31, 2011

                                                                                                Investigated
State   Program         Alleged Violation(s) Prosecuted                   Legal Action
                                                                                                Jointly With
                  A former director of a federal government         Former director
                  outpatient pharmacy conspired with a              sentenced to
                  subordinate to allow the subordinate to be        5 months in prison and
                  involved in the hiring and supervising of         $49,484 in restitution.
                  temporary pharmacist employees supplied by                                     VA/OIG,
 IL       GC
                  a company owned by the subordinate’s                                          DCIS, USSS
                  spouse. The former director also received
                  illegal gratuities in exchange for helping to
                  steer orders to a vendor who provided
                  supplies to the outpatient pharmacy.
                  An individual allegedly used the identity of      Individual indicted.
                  his business partner, a federal air marshal, to
                  obtain an SBA Express Loan and multiple
KY        BL      credit cards. It is also alleged that the                                        USSS
                  individual deposited a $167,000 counterfeit
                  check into a federally insured financial
                  institution.
                  An individual created fraudulent receipts and     Individual pled guilty.
                  documents to reflect repair expenses that she
                                                                                                 HUD/OIG,
                  had supposedly sustained as a result of
                                                                                                 DHS/OIG,
LA        DL      Hurricane Katrina, but which she had not
                                                                                                 USPS/OIG
                  actually incurred. Based on the fraudulent
                  documents, she received an SBA disaster
                  loan of $108,000.
                  An individual received an Economic Injury         Individual pled guilty
                  Disaster Loan, on behalf of her father, in the    and sentenced to 37
                  amount of $342,000. She submitted a false         months in prison, 3 years
                                                                                                 HUD/OIG,
                  mortgage as security for the loan, leases with    supervised release, and
LA        DL                                                                                     DHS/OIG,
                  inflated rental amounts to prove her ability to   restitution of $476,906.
                                                                                                 DOS/OIG
                  repay the loan, and receipts misrepresenting
                  work done on the properties with the loan
                  proceeds.
                  After being approved for a disaster home          Individual sentenced to
                  loan of $79,500 and a disaster business loan      18 months in prison, 3
                  of $70,000, an individual submitted fictitious    years supervised release,
                  documents, including a lien release, invoices,    and restitution of
LA        DL                                                                                        FBI
                  insurance forms, and contractor proposals, in     $136,952.
                  order to mislead SBA and influence the
                  disbursement of additional disaster loan
                  funds.




                                                 52
                                       Appendices

                                          Appendix X

                               Legal Actions Summary
                        October 1, 2010 through March 31, 2011

                                                                                               Investigated
State   Program         Alleged Violation(s) Prosecuted                 Legal Action
                                                                                               Jointly With
                  An individual provided false information         Individual sentenced to
                  regarding the address of his primary             78 months in prison, 3
                  residence at the time of Hurricane Katrina.      years supervised release,
                  He received a $110,900 SBA disaster loan, as     and restitution of
                  well as a grant from the Louisiana Road          $245,197.                    HUD/OIG,
LA        DL
                  Home Program. The sentencing also                                               FBI
                  incorporates penalties for charges relating to
                  obtaining drivers’ licenses and Social
                  Security and health care benefits under the
                  name of the individual’s deceased brother.
                  An individual misrepresented her income and      Individual pled guilty.
                  employment to SBA in order to obtain loan        Individual sentenced to
                  approval and subsequent increases. She also      6 months in jail
                  made false statements and submitted              (suspended) and             HUD/OIG,
LA        DL      fraudulent documentation to claim highly         unsupervised probation      DHS /OIG,
                  inflated disaster losses and repair expenses.    until the SBA loan is         FBI
                  The original SBA loan amount was $27,700;        paid in full.
                  the loan was subsequently increased six
                  times to $187,800.
                  An individual allegedly provided false           Individual charged by
                  statements on her applications for disaster      criminal information.
                  assistance regarding her primary residence
                  being affected by Hurricane Katrina.
                  Although she owned the property that she                                     HUD/OIG,
                  claimed as her primary residence, the house                                  DHS /OIG,
LA        DL
                  was considered unlivable prior to the storm.                                   FBI
                  As a result of her representations, she
                  received $219,000 in disaster loan funds
                  from the SBA, as well as assistance from
                  FEMA and the Louisiana Road Home
                  Program.
                  An individual made false claims to SBA           The individual and her
                  regarding the location of her primary            husband entered into a
                  residence at the time of Hurricane Katrina.      civil settlement
                  Based on this claim, she received an SBA-        agreement with the
                  guaranteed loan for $182,900, as well as         United States on behalf
                  benefits from FEMA and the Louisiana Road        of the SBA, HUD, and
                                                                                               HUD OIG,
LA        DL      Home Program.                                    FEMA. They agreed to
                                                                                               DHS OIG
                                                                   pay $140,000 to settle
                                                                   the claims. The couple
                                                                   had already paid the
                                                                   remaining $94,656
                                                                   balance of the SBA
                                                                   disaster loan.

                                                53
                                       Appendices

                                           Appendix X

                               Legal Actions Summary
                        October 1, 2010 through March 31, 2011

                                                                                                 Investigated
State   Program         Alleged Violation(s) Prosecuted                  Legal Action
                                                                                                 Jointly With
                  A couple applied for an SBA loan for             Husband sentenced to 18
                  Hurricane Katrina damages using an address       months in jail, 36
                  of a property that they owned but did not        months supervised
                  occupy. The couple received a $50,000            release, and restitution of
                  disaster loan by misrepresenting this property   $122,715. Former wife          HUD/OIG,
LA        DL      as their primary residence.                      sentenced to 6 months at      DHS/OIG, FBI
                                                                   a halfway house, 6
                                                                   months home detention,
                                                                   36 months supervised
                                                                   probation, and restitution
                                                                   of $110,300.
                   The president of a design engineering firm       The company president
                   falsely represented to the SBA and other         agreed to pay the United
                   government agencies that the company             States $200,000 to settle
                   maintained its principal office in a             civil False Claims Act
                   designated Historically Underutilized            charges.                       DCIS,
                   Business Zone (HUBZone) location. Based                                       Smithsonian/
MD        GC
                   upon these false representations made to the                                      OIG
                   SBA and the contracting agencies, the
                   company was awarded contracts from the
                   U.S. Army, the Department of Labor, the
                   Department of Homeland Security, and the
                   Smithsonian.
                  A government employee used his                   Government employee
                  government purchase card to pay for goods        sentenced to 15 months
                  and services that were never provided or         in prison, 3 years
                  provided at inflated prices. The three           supervised release, and
MD        GC                                                                                      NARA/OIG
                  businesses from which purchases were made        restitution of $958,281 to
                  were operated by the same contractor and         be paid jointly and
                  falsely listed on contracting documents as       severally with his co-
                  being 8(a) certified.                            conspirator.
                  The presidents of two companies falsely          The two companies and
                  represented to the SBA and other                 their presidents agreed to
                  government agencies that their companies         pay the United States
                  qualified for SBA’s 8(a) business                $200,000 to settle civil
MD        GC                                                                                        DCIS
                  development and HUBZone programs. The            False Claims Act
                  companies then obtained set-aside                charges.
                  construction contracts from the Department
                  of Defense.




                                                 54
                                       Appendices

                                          Appendix X

                               Legal Actions Summary
                        October 1, 2010 through March 31, 2011

                                                                                               Investigated
State   Program         Alleged Violation(s) Prosecuted                  Legal Action
                                                                                               Jointly With
                  The owner of a restaurant equipment              The owner of the
                  business contracted with the vice president of   restaurant equipment
                  a restaurant to perform                          outlet sentenced to 6
                  construction/renovation work and provide         months home detention,
                  equipment at a cost of $145,000. The two         3 years probation, and
MD        BL      conspired to falsely inflate the total cost of   $97,000 in restitution.        None
                  the project in order for the restaurant vice     The restaurant vice
                  president to obtain a $417,000 SBA-              president found guilty in
                  guaranteed loan. The contractor returned         a jury trial.
                  $97,000 of the loan proceeds back to the
                  borrower.
                  The president of a title company conspired       Individual pled guilty.
                  with others to pay kickbacks to brokers and
                  realtors in exchange for them utilizing the
 MI       BL      title company to conduct residential loan                                       USSS
                  closings. This scheme was revealed when
                  investigating widespread fraud associated
                  with a large non-bank lender.
                  A former real estate agent agreed to obtain a    Former real estate agent
                  $125,085 loan for another individual in          pled guilty and
                  exchange for $7,500. The remaining loan          sentenced to 5 years
MO        BL      proceeds went to benefit other individuals       probation.                      FBI
                  and business entities, to include making
                  payments on SBA-guaranteed loans made to
                  the individual’s company.
                  An individual allegedly misrepresented that      Individual indicted.
                  his primary residence had been damaged by        Remaining balance of
                                                                                               HUD OIG,
                  Hurricane Katrina in order to secure a           SBA loan repaid.
MS        DL                                                                                   DHS OIG,
                  $144,900 disaster home loan. Using the
                                                                                                MSAO
                  same information, he also received disaster
                  benefits from other federal agencies.
                  A husband and wife received $152,000 in          Husband sentenced to
                  SBA disaster relief funds based on a claim       18 months in prison and
                  for Hurricane Katrina damages to property        3 years supervised
                                                                                               HUD/OIG,
                  that was not their primary residence.            release. Wife sentenced
                                                                                                MSAO,
MS        DL                                                       to 15 months in prison
                                                                                               DHS/OIG,
                                                                   and 3 years supervised
                                                                                               HHS/OIG
                                                                   release. Both ordered to
                                                                   pay joint and several
                                                                   restitution of $95,379.




                                                 55
                                Appendices

                                   Appendix X

                       Legal Actions Summary
                October 1, 2010 through March 31, 2011

          When applying for an SBA home disaster             Husband sentenced to 36
          loan, a husband and wife allegedly claimed a       months probation and
          property in Mississippi as their primary           restitution of $25,000.      HUD/OIG,
MS   DL   residence, when, in reality, they were living      Wife sentenced to 60         DHS/OIG,
          in California. They were approved for a            months probation and          MSAO
          loan of $240,000, of which $50,000 was             restitution of $25,000.
          disbursed.
          An individual claimed addresses on her             Individual indicted.
          applications for disaster assistance following     Remaining balance of
          Hurricane Katrina that were not her primary        SBA loan repaid.             HUD/OIG,
MS   DL   residence in an attempt to fraudulently                                         DHS/OIG,
          receive an SBA disaster home loan of                                             MSAO
          $43,000, as well as other disaster related
          benefits.
          A loan broker obtained multiple SBA-               Loan broker pled guilty
          guaranteed loans from various financial            to a criminal
          institutions for fictitious businesses. The        information.
          loan broker was operating as part of an                                         IRS/CID,
NJ   BL
          organized group of foreign nationals who                                         ENJPD
          were obtaining credit cards and loans from
          various lending institutions using false
          identities, documents, and business names.
          The owner of a now-defunct retail and design       Owner and her company
          company allegedly submitted fraudulent             indicted.
NJ   DL   invoices and correspondence when applying                                         None
          for an $80,100 SBA disaster loan related to
          floods in the local area.
          The owners of a production company                 The couple paid
          obtained an SBA 9/11 Disaster Loan of              $140,000 as part of a
          $198,000 for their company. The                    settlement with the SBA
          investigation revealed that $102,000 was           during liquidation
NY   DL   transferred from the business bank account         proceedings. They also         None
          into the couple’s personal bank account and        entered into a civil
          used for non-business related expenses.            settlement agreeing to
                                                             pay $90,000 to settle the
                                                             charges.
          An individual misrepresented himself as            Individual pled guilty
          senior vice president of a financial institution   and sentenced to 6 years
          and gave false representations to borrowers        probation, $75 in fines,
          indicating that he could secure SBA loans for      and $4,998 in restitution.
                                                                                          TPD, PPD,
PA   BL   them. He took application fees from the            In addition, the court
                                                                                           NGTPD
          borrowers knowing that he was not an SBA-          ordered that the
          approved lender.                                   individual could not hold
                                                             a fiduciary position for 6
                                                             years.


                                          56
                               Appendices

                                  Appendix X

                       Legal Actions Summary
                October 1, 2010 through March 31, 2011

          When applying for a $196,300 Hurricane            Individual pled guilty.
          Rita disaster business loan, an individual
          misrepresented his criminal record and
          submitted fictitious receipts and estimates to
          the SBA. Of the $196,300 loan, he used
TX   DL                                                                                  None
          approximately $50,000 on actual business
          property and expenses. The remainder was
          spent to pay off a bankruptcy judgment,
          finance his daughter’s college tuition, and
          buy a new car and new furniture.
          The seller and buyer of a convenience store       Seller sentenced to 5
          conspired with others to obtain a $1 million      years probation (to
          SBA-guaranteed loan and a $300,000                include 8 months home
          conventional loan to finance the purchase.        confinement), restitution
TX   BL                                                                                   FBI
          The seller represented that equity injection      totaling $297,320, and a
          funds had been received at closing from the       $10,000 fine.
          borrower when, in fact, no money was
          exchanged.
          A loan broker for a development company           Loan broker indicted.
          allegedly misrepresented the cash injection
          amounts on three separate SBA loans totaling
TX   BL   over $3.7 million. The broker provided the                                      FBI
          bank with copies of checks from the
          borrowers that were never cashed by the
          development company.
          A husband and wife received an SBA Disaster       Three individuals
          Assistance Loan in the amount of $171,600, to     indicted.
          rebuild their home that had been damaged as a
          result of Hurricane Katrina. It is alleged that
          the couple conspired with another individual
TX   DL                                                                                 DHS/OIG
          (related by marriage) to defraud the SBA by
          submitting fraudulent receipts and invoices
          and making fictitious statements and
          representations in order to increase the loan
          amount and justify the use of loan proceeds.
          An individual provided false residential,         Subject pled guilty and
          identification, and employment information,       sentenced to 5 years
                                                                                        DHS/OIG,
          as well as fraudulent supporting                  probation and $79,479 in
TX   DL                                                                                 DOL/OIG
          documentation, when applying for Hurricane        restitution.
          Katrina disaster assistance, including a
          $40,000 SBA disaster loan.




                                        57
                                            Appendices

                                               Appendix X

                                    Legal Actions Summary
                             October 1, 2010 through March 31, 2011

                                                                                                     Investigated
 State      Program          Alleged Violation(s) Prosecuted                  Legal Action
                                                                                                     Jointly With
                       An individual, acting as a loan agent, received   Loan agent indicted.
                       loan applications from potential borrowers
                       and then allegedly inflated the income
  TX           BL                                                                                        FBI
                       information provided by the applicants and
                       submitted the fraudulent loan applications to
                       various banks.
                       A company president falsely represented to        Company and president
                       the SBA that his company’s principal office       agreed to pay the United
                       was located in a designated HUBZone               States $150,000 to settle
  VA          GC       location. Once certified, the company             civil False Claims Act        VA/OIG
                       fraudulently obtained a HUBZone contract for      charges.
                       fire alarm installation from the Department of
                       Veterans Affairs.
                       The attorney for the seller of a now-defunct      Attorney pled guilty.
                       disaster restoration business made false
                       representations to the SBA, including
                       understating the purchase price by over $3
                       million. The seller sold the business to a
                       buyer who obtained a $1,999,800 SBA-
  WA           BL      guaranteed loan to fund a portion of the sale.                                  IRS/CID
                       The inflated financial statements were
                       submitted to the lender to support the value
                       of the business and the purchase price. The
                       seller then used the fraudulently obtained
                       loan proceeds to purchase a $1.785 million
                       home in Florida.

Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a) Business
Development.

Joint-investigation Agency Acronyms: DCIS=Defense Criminal Investigative Service; DEA= Drug Enforcement
Administration; DHS/ICE=Department of Homeland Security/Immigration and Customs Enforcement;
DOL/OIG=Department of Labor/OIG; DOS/OIG=Department of State/OIG; DHS/OIG=Department of Homeland
Security/OIG; ENJPD= Englewood New Jersey Police Department FBI=Federal Bureau of Investigation;
FEMA=Federal Emergency Management Agency; HHS/OIG=Department of Health and Human Services/OIG;
HUD/OIG=Department of Housing and Urban Development/OIG; IRS/CID=Internal Revenue Service/Criminal
Investigations Division; MSAO= Mississippi State Auditor’s Office; NARA/OIG=National Archives and Records
Administration/OIG; NGTPD=New Garden Township Police Department; PPD=Phoenixville Police Department;
Smithsonian/OIG= Smithsonian Institution OIG; TPD=Tredyffrin Police Department, USPS/OIG=United States
Postal Service/OIG; USSS=United States Secret Service; VA/OIG=Department of Veterans Affairs/OIG.




                                                      58
                                           Appendices

                                             Appendix XI

                                  Results of External Peer Reviews

Section 5(a) of the IG Act contains the following requirements for reporting the results of peer reviews in
OIG Semiannual Reports to Congress:

        "(14)(A) an appendix containing the results of any peer review conducted by another
        Office of Inspector General during the reporting period; or

         "(B) if no peer review was conducted within that reporting period, a statement
        identifying the date of the last peer review conducted by another Office of Inspector
        General;

         "(15) a list of any outstanding recommendations from any peer review conducted by
        another Office of Inspector General that have not been fully implemented, including a
        statement describing the status of the implementation and why implementation is not
        complete; and

         "(16) a list of any peer reviews conducted by the Inspector General of another Office of
        the Inspector General during the reporting period, including a list of any outstanding
        recommendations made from any previous peer review (including any peer review
        conducted before the reporting period) that remain outstanding or have not been fully
        implemented."

The following information is provided in accordance with these requirements.

Auditing

Generally Accepted Government Auditing Standards (GAGAS) issued by the Government Accountability
Office (GAO) require that audit organizations performing audits and attestation engagements in
accordance with GAGAS must have an external peer review performed by reviewers independent of the
audit organization being reviewed at least once every 3 years.

The SBA OIG did not have a peer review conducted during this semiannual reporting period. The last
peer review of the SBA OIG was conducted by the Department of Commerce OIG, which issued its final
report on December 18, 2009. The SBA OIG received a rating of “Pass” in that report (federal audit
organizations can receive a rating of Pass, Pass with Deficiencies, or Fail). There are no outstanding
recommendations from previous peer reviews of the SBA OIG.

The SBA OIG did not conduct a peer review of another OIG during this semiannual reporting period.
There are no outstanding recommendations from previous peer reviews of other OIGs conducted by the
SBA OIG.




                                                    59
                                        Appendices

                                           Appendix XI

                                Results of External Peer Reviews
Investigations

Section 6(e)(7) of the IG Act, Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority, and the CIGIE Quality Standards for Investigations require
external peer reviews of OIG investigative functions no less often than once every 3 years.

The SBA OIG did not have a peer review conducted during this semiannual reporting period. The last
peer review of the SBA OIG was conducted by the Department of Transportation OIG, which issued its
final report on May 7, 2009. The SBA OIG was found to be in compliance with quality standards
established by the CIGIE and Attorney General guidelines (OIGs can be assessed as either Compliant or
Noncompliant). There are no outstanding recommendations from previous peer reviews of the SBA OIG.

The SBA OIG did not complete a peer review of another OIG during this semiannual reporting period.
There are no outstanding recommendations from previous peer reviews of other OIGs conducted by the
SBA OIG.




                                                 60
                                           Appendices

                                             Appendix XII

                                   Small Business Administration
                                    Office of Inspector General

The OIG has four divisions that perform the key functions described.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties. They also conduct the name check program, which provides SBA
        officials with character-eligibility information on loan applicants and other potential program
        participants.

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG is headquartered in Washington, DC, and has field staff located in Atlanta, GA; Chicago, IL;
Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City, MO;
Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA; and
Washington, DC.

An organization chart for the OIG is shown on page 63.




                                                   61
This page intentionally left blank.




                  62
                                                                               Appendix XII

                                                                Small Business Administration
                                                                 Office of Inspector General


                                                                                Inspector
                                                                                 General
                                                                                                                          Counsel Division

                                                                          Deputy Inspector
                                                                             General



         Auditing Division                                                                Investigations Division                       Management and Policy
                                                         Security Operations
                                                                                                                                              Division
63




     Credit Programs           Business Development
         Group                   Programs Group
                                                                                Eastern Region          Central Region         Southern Region      Western Region


       Atlanta, GA                Washington, DC
                                                                                  Atlanta, GA             Chicago, IL             Houston, TX          Denver, CO


       Chicago, IL
                                 Los Angeles, CA                                  Herndon, VA              Dallas, TX           New Orleans, LA      Los Angeles, CA


       Herndon, VA
                             Financial Management & IT                             Miami, FL              Detroit, MI                                 Tacoma, WA
                                       Group
     Washington, DC
                                                                                 New York, NY           Kansas City, MO
                                  Washington, DC


                                                                                Philadelphia, PA
                             Disaster Assistance Group

                                                                                 Washington, DC
                               Dallas/Fort Worth, TX
                                Make A Difference!

  To promote integrity, economy, and efficiency, we encourage you to report instances of
             fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                             Online:
                      http://www.sba.gov/office-of-inspector-general/2662



                                                Call:
                                     1-800-767-0385 (Toll Free)




                                      Write or Visit:
                                U.S. Small Business Administration
                                    Office of Inspector General
                                      Investigations Division
                                 409 Third Street, SW (5th Floor)
                                      Washington, DC 20416



*In accordance with Sections 7 and 8L(b)(2)(B) of the IG Act, confidentiality of
 a complainant’s personally identifying information is mandatory, absent express consent
 by the complainant authorizing the release of such information.
